<html>
<title> - CLIMATE CHANGE IMPACTS TO THE UNITED STATES</title>
<body><pre>[Senate Hearing 106-1128]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 106-1128

                     CLIMATE CHANGE IMPACTS TO THE 
                             UNITED STATES

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 18, 2000

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



83-959              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South Carolina
CONRAD BURNS, Montana                DANIEL K. INOUYE, Hawaii
SLADE GORTON, Washington             JOHN D. ROCKEFELLER IV, West 
TRENT LOTT, Mississippi                  Virginia
KAY BAILEY HUTCHISON, Texas          JOHN F. KERRY, Massachusetts
OLYMPIA J. SNOWE, Maine              JOHN B. BREAUX, Louisiana
JOHN ASHCROFT, Missouri              RICHARD H. BRYAN, Nevada
BILL FRIST, Tennessee                BYRON L. DORGAN, North Dakota
SPENCER ABRAHAM, Michigan            RON WYDEN, Oregon
SAM BROWNBACK, Kansas                MAX CLELAND, Georgia
                  Mark Buse, Republican Staff Director
               Ann Choiniere, Republican General Counsel
               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 18, 2000....................................     1
Statement of Senator McCain......................................     1
    Prepared statement...........................................     2
Prepared statement of Senator Snowe..............................     2

                               Witnesses

Janetos, Dr. Anthony C., Senior Vice President for Program, World 
  Resources Institute............................................    15
    Joint prepared statement.....................................     6
Karl, Thomas R., Director, National Climatic Data Center, 
  National Environmental Satellite, Data, and Information 
  Service, National Oceanic and Atmospheric Administration.......     3
    Joint prepared statement.....................................     6
Melillo, Dr. Jerry M., Senior Scientist, Ecosystems Center, 
  Marine Biological Laboratory, joint prepared statement.........     6
Schmitt, Dr. Raymond W., Senior Scientist, Woods Hole 
  Oceanographic Institutions.....................................    17
    Prepared statement...........................................    19
Singer, Dr. S. Fred, Professor Emeritus of Environmental 
  Sciences, University of Virginia, and Former Director of U.S. 
  Weather Satellite Service......................................    25
    Prepared statement...........................................    27

                                Appendix

The Annapolis Center, prepared statement.........................    43
Climate Policy--from Rio to Kyoto: a Political Issue for 2000--
  and Beyond, Hoover Institution Essay by S. Fred Singer.........    55
Craig, Hon. Larry E., U.S. Senator from Idaho, prepared statement    37
Robert Mendelsohn, Edwin Weyerhaeuser Davis Professor, Yale 
  University, School of Forestry and Environmental Studies, 
  letter dated July 12, 2000 to Hon. John McCain.................    56
Murkowski, Hon. Frank H., U.S. Senator from Alaska, prepared 
  statement......................................................    39
Response to written questions submitted by Hon. John McCain to:
    Thomas R. Karl...............................................    33
    Dr. Anthony C. Janetos.......................................    34
    Dr. Raymond W. Schmitt.......................................    35
    Dr. S. Fred Singer...........................................    36
Rhines, Dr. Peter B., Professor, University of Washington, 
  prepared statement.............................................    48

 
                     CLIMATE CHANGE IMPACTS TO THE 
                             UNITED STATES

                              ----------                              


                         TUESDAY, JULY 18, 2000

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:32 a.m. in room 
SR-253, Russell Senate Office Building, Hon. John McCain, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    The Chairman. Good morning. Earlier this year, we examined 
the science behind global warming as a means of defining the 
problem. Today we hope to further our efforts to understanding 
this issue by discussing the climate change impact on the 
United States, and the National Assessment Report. Because of 
the fact that at 9:45 a.m. we will begin a series of 11 votes, 
which will consume the entire morning, we have a problem. We 
contemplated delaying the rest of the hearing until this 
afternoon, but unfortunately, a number of our witnesses were 
not able to remain.
    So what I would like to do is begin with opening 
statements, go as long as we can, and then I will have to 
adjourn the hearing and reschedule it at a later date. With a 
vote every 10 minutes, I cannot keep the witnesses here for an 
extended period of time. It would not be fair to the witnesses, 
nor would it provide for a productive hearing.
    So what I would like to do is begin with our first panel, 
which is Dr. Thomas Karl, Director of the National Climatic 
Data Center, National Environmental Satellite, Data, and 
Information Service of NOAA, Dr. Anthony C. Janetos, Senior 
Vice President for Program, World Resources Institute, Dr. 
Raymond Schmitt, Senior Scientist, Woods Hole Oceanographic 
Institutions, and Dr. Fred Singer, Professor Emeritus of 
Environmental Sciences, University of Virginia.
    I would like to express my deep apology to all of the 
witnesses, particularly some who have come here from long 
distances. At this time of year, we affirm Mr. Bismarck's 
statement that the two things you never want to see made are 
laws and sausages. These are very important hearings and very 
important witnesses, and we will reschedule at the earliest 
date.
    Mr. Karl, we will begin with you.
    [The prepared statement of Senator McCain follows:]

      Prepared Statement of John McCain, U.S. Senator from Arizona

    Earlier this year, we examined the science behind global warming as 
a means of defining the problem. Today, we hope to further our efforts 
to understand this issue by discussing the Climate Change Impact On the 
United States, the National Assessment Report.
    This morning we will examine, as noted in the National Assessment 
Report, climate change impacts on the United States. Because the report 
is currently in its 60-day public comment period which ends August 11, 
we feel that this is an opportune time for the Committee to discuss 
this very important matter. We hope that today's discussion will spur 
others to review the document and provide comments to the White House.
    I know that some have asked that today's proceeding be postponed 
until later in the year. I feel this would be a mistake given the 
timeframe that the Administration has laid out for completing this 
report. I believe it is important to have this open discussion while 
the report is still in its draft form thus providing valuable input as 
it is finalized. Postponing this hearing will not afford the Committee 
the opportunity to examine the report before finalization.
    I look forward to hearing from our witnesses today. Although there 
are many issues that need to be addressed, I hope the witness will 
focus on the following: ``how can two computer models which give 
different results be used to reach a consensus conclusion,'' why 
federally-funded U.S. models were not selected for the study, and what 
role does the ocean's dynamics play in these analyses.
    As we review this document and other weather predictions, we should 
keep in mind that these predictions or forecasts have very real 
meanings to people and the economy. This past Sunday's edition of The 
Washington Post contained an article that demonstrates the importance 
of accurate weather forecasting.
    The article states that the Department of Agriculture and National 
Weather Service officials predicted that severe drought could cripple 
the farm economy in much of the Midwest and Deep South. Secretary 
Glickman warned that the lack of rain could be ``catastrophic'' to 
farmers, and Jack Kelley, Director of the National Weather Service, 
observed that the Midwest drought was the worst since 1955.
    Farmers in the agricultural heartland took heed of the warning. 
Many who were storing their 1999 yields held off putting their crops on 
the market, reckoning that a drought-induced falloff in production this 
year would drive up prices.
    What happened was just the opposite. Timely rains and cooler-than-
predicted temperatures have offered promise of bumper crops in much of 
the Midwest and other parts of the nation this fall, ensuring that 
grain and soybean prices will go down for the third straight year due 
to continuing oversupply.
    Last week, the Department of Agriculture lowered its price 
projections for corn, soybeans and wheat. The point being that a 
serious, sober examination of the topic is long overdue.
    Again, as noted, this is very serious business with real impacts to 
the American economy and the lives and well-being of our citizens.
    I welcome all of our witnesses here today.

    [The prepared statement of Senator Snowe follows:]

    Prepared Statement of Olympia J. Snowe, U.S. Senator from Maine

    Thank you, Mr. Chairman, for calling this important hearing today 
to review the public review draft for the National Assessment Report: 
Climate Change Impacts on the United States, to which the public can 
respond until August 11. The report is the most comprehensive so far--
giving us snapshots specifically for U.S. projections through computer 
modeling to help us determine potential human impacts on the climate 
change process. The Report assesses both geographic regions of the 
country and its socioeconomic sectors. Whether you agree with the 
different scenarios projected or not, it is a place for us to start.
    In 1990, this Committee reported out legislation that was 
ultimately signed into law by President George Bush, the U.S. Global 
Change Research Program Act, which, among other programs, called for a 
National Assessment Report to Congress. The Assessment may be an 
extremely important tool when we consider the long lifetimes of the 
buildup of greenhouse gases--particularly carbon dioxide--that have 
already been put into the atmosphere, both manmade and natural.
    Section 106 of the 1990 Public Law calls for a scientific 
assessment not less frequently than every four years. Quite frankly, I 
do not believe we should wait for another assessment in four years 
time, as I understand the United States has made great strides in 
modeling technologies and capabilities. I would like to think we are 
capable of pulling on our country's best scientific modeling, as well 
as the Canadian and United Kingdom models used for the Assessment in a 
shorter time frame. We need the most updated research information so as 
to be able to make reasoned environmental and economic policy 
decisions.
    In looking at the potential impacts for my state, I noted 
projections that gave me great pause. Many in Maine would tell you that 
if the devastating Ice Storm the Assessment Report mentions that hit 
across the State in 1998 and paralyzed the state's power infrastructure 
for over three weeks during bitter cold weather, is a harbinger of what 
we may expect with climate change, I believe they would want Congress 
to be paying more attention to the issue.
    Also noted in the Report are the possible changes in Northeast 
forests from conifer to deciduous trees, and the loss of an entire 
tourist industry if the range of our vibrant sugar maple trees shifts 
more northward into Canada; and the reduction of cold weather 
recreation that is vital to the State's winter ski and snowmobile 
industry.
    On the brighter side, there may be the possibility for longer warm 
weather recreation, already a popular summer pastime in my State, a 
reduction for heating requirements in the winter--certainly good news 
considering the State's energy problems last winter both with the 
supply and the price of home heating oil--and the prediction for 
increased crop and forest productivity.
    One of my biggest concerns is the possible consequences of pest and 
disease outbreaks if the climate continues to warm, implications for 
both human health and our economy. According to the report, the 
Northeast, because of warmer winter weather, may experience increased 
incidences of diseases such as Lyme disease or West Nile encephalitis--
the same disease that was found for the first time in the New York City 
area last year, which killed 7 people.
    The Report says outbreaks are possible because of the increased 
survival of the reservoirs of infection, such as deer and white-face 
mice, and the vectors of infections, such as ticks and mosquitoes. If 
true, this is very disturbing.
    Also, there are also some common themes among the regions that are 
noteworthy. Over 50 percent of the U.S. population resides in the 
coastal zone. All coastal regions will have to adapt to changes in 
shoreline characteristics and marine resources as a result of climate 
change. The models do not clearly predict many of these changes and we 
need to improve our oceanic databases to strengthen these models.
    Even if the models are too high by 50 percent, we still need to 
know who and what may be affected--both the positive and the negative--
so that informed environmental and economic decisions can be made for 
mitigation and adaptation.
    I look forward to the testimony and the discussion this morning, 
and once again, thank Senator McCain for again bringing focus to the 
issue of global climate change in this Committee as we have 
jurisdiction over many of the programs concerned with climate change. I 
thank the Chair.

        STATEMENT OF THOMAS R. KARL, DIRECTOR, NATIONAL 
         CLIMATIC DATA CENTER, NATIONAL ENVIRONMENTAL 
      SATELLITE, DATA, AND INFORMATION SERVICE, NATIONAL 
             OCEANIC AND ATMOSPHERIC ADMINISTRATION

    Mr. Karl. Thank you, Senator. We very much appreciate the 
opportunity to comment on the National Assessment. I would like 
to begin with the statement that suggests that the relevant 
question in this assessment is not whether greenhouse gases are 
increasing due to human activities and contributing to global 
warming. Clearly they are.
    The Chairman. Would you pull the microphone a little bit 
closer?
    Mr. Karl. Rather, the question is, what will be the amount 
and rate of future warming and associated climate change 
impacts and how will those changes affect human and natural 
ecosystems?
    In this assessment we used climate model simulations with 
projected changes in greenhouse gases and aerosols comparable 
to those used in the business-as-usual cases conducted by the 
Intergovernmental Panel on Climate Change to assess those 
impacts on a regional basis across the nation.
    Our results indicate that climate change will vary widely 
across the nation, those impacts will vary widely, as will our 
vulnerability to climate change. What do we mean by 
vulnerability? Vulnerability is defined as the magnitude of the 
climate impact after consideration of adaptation measures to 
lessen those impacts.
    We appear to be particularly vulnerable to those impacts 
affecting natural ecosystems, but less vulnerable to those 
related to human-managed systems. We expect that the direct 
economic vulnerability is likely to be modest during the 21st 
Century for the kinds of climate scenarios we use in this 
assessment, but this, too, is likely to vary considerably from 
region to region.
    The two principal climate scenarios for the 21st Century in 
the assessment can be briefly summarized as: one scenario is 
warm and wet and the other is hot and dry. Some of the gross 
features include annual average temperature increases of about 
5 to 10 degrees Fahrenheit. This is about five to ten times the 
increase that has occurred during the 20th Century. Changes in 
total precipitation are less certain.
    The Chairman. Have you ever seen changes like that before?
    Mr. Karl. No.
    The Chairman. Increases in temperature?
    Mr. Karl. No. This would be an unprecedented change this 
century. In fact, the temperature increases during the 20th 
Century we now believe to be larger than anything we have seen 
in the last thousand years.
    Changes in total precipitation are less certain, as 
indicated. For example, the wetter scenario has substantial 
increases in precipitation in the Southeast, about a 10- to 30-
percent increase in precipitation. The drier scenario has about 
an equal decrease in precipitation.
    There are other aspects of precipitation that we do have 
more certainty about. For example, all the climate scenarios 
and the observations suggest that more precipitation will occur 
in heavy and extreme precipitation events, as opposed to the 
light and moderate events.
    All regions are affected by increases in the ability of the 
atmosphere to evaporate water from the surface as the 
temperature increases. This means that areas with marginal 
increases in precipitation are likely to be more vulnerable to 
more frequent extreme and severe drought. Other aspects of 
extreme weather, such as hurricane tracks, local severe 
weather, tornadoes, hail, et cetera, is still very uncertain.
    The Chairman. I do not understand why an increase in severe 
weather would be associated with climate change.
    Mr. Karl. Regarding the increase in heavy and extreme 
precipitation events, the best way to think about it is if you 
can imagine during the winter time in Alaska when you have 
precipitation, it falls in very light events. It is never very 
heavy. In converse, think about in the summertime, especially 
in the southern parts of the U.S., when it rains it rains very 
heavily, usually in short periods. This is the kind of trend 
that you will be seeing more frequently. We already see it in 
the observations. That is, precipitation tends to come in 
shorter bursts but heavier in magnitude.
    With respect to some of the notable regional impacts around 
the nation, based on scenarios we used, I will just mention a 
few. In Alaska, sharp increases in temperature during the cold 
season are very likely to cause continued thawing of the 
permafrost, further disrupting the forest ecosystem, roads and 
buildings in that area. There is already considerable evidence 
in the observations that that has taken place.
    In the Pacific Northwest there is likely to be more 
wintertime flooding and reduced spring flooding as snow pack 
decreases. Again the observations already show a significant 
decrease in snow, particularly in the West. This will put added 
stress on summer water supplies. Rising water temperatures will 
further complicate needed fish restoration efforts.
    In the Midwest, at least for the next few decades, it is 
likely we will see a continued increase in agricultural 
production, in large part due to the fertilization effect of 
carbon dioxide on crops. We expect reductions in lake levels 
are also likely, increasing the cost of transportation in the 
lakes and down the rivers, ship and barge transportation. 
Increased water temperatures are likely to lead to increased 
eutrophication and reduced oxygen levels in lakes and rivers.
    In the Northeast, climate change will very likely interact 
with many existing stresses in urban areas such as air quality, 
transportation, especially along the coast, due to rising sea 
level and storm surges, increased heat-related stresses, and 
effects on inflexible water supply systems.
    Other stresses are likely to be mitigated. For example, 
snow removal costs and extreme cold winter exposures.
    In the Southeast, generally the South does not reap the 
benefits of increased temperature for agricultural purposes, 
since temperatures are already quite warm. Along the Southeast 
gulf coast, inundation of coastal wetland is very likely to 
increase, threatening fertile areas for marine life, migrating 
birds, waterfowl.
    In the hotter and drier scenario grasslands and savannahs 
replace the southernmost forests in the Southeast, while the 
warmer weather scenario expands the range of the southern tree 
species, and large increases in the heat index (the combination 
of temperature and humidity) average 10 to over 25 degrees 
Fahrenheit increases that will make summer outdoor activities 
quite stressful.
    In the Great Plains, similar to the Midwest, higher 
CO<INF>2</INF> concentrations are likely to offset the effects 
of rising temperatures, increasing agricultural yields and 
forest cover for several decades. Again, the southern portions 
of the Great Plains are not likely to reap these benefits.
    In the West, both scenarios project a substantial increase 
in precipitation, leading to a reduction in desert ecosystems, 
being replaced by shrublands.
    For our island States, more intense cycles of El Nino and 
la nina are possible, thereby increasing stresses on existing 
water supplies.
    These are just a few of the impacts we discuss in the 
National Assessment. I just wanted to mention that there are 
many issues we are uncertain about, especially issues that are 
interdependent. These could be important, even though we do not 
understand them. Further assessments will need to address many 
of these interdependencies.
    Thank you for the opportunity to make an opening statement.
    [The joint prepared statement of Mr. Karl, Dr. Melillo, and 
Dr. Janetos follow:]

Joint Prepared Statement of Thomas R. Karl, Director, National Climatic 
 Data Center, National Environmental Satellite, Data, and Information 
Service, National Oceanic and Atmospheric Administration; Dr. Jerry M. 
    Melillo, Senior Scientist, Ecosystems Center, Marine Biological 
Laboratory; and Anthony C. Janetos, Senior Vice President for Program, 
                       World Resources Institute

    We are very pleased to have the opportunity to address the Senate 
Committee on Commerce, Science, and Transportation on the topic of the 
potential impacts of climate variability and change on the U.S. Our 
draft assessment report, Climate Change Impacts on the United States: 
the Potential Consequences of Climate Variability and Change was 
released for a 60 day public comment period on Monday, June 12. It is 
an extensive synthesis of the best available scientific information on 
this important topic.
    There are three questions about climate change that dominate 
discussions of this important topic. How much climate change is going 
to occur? What will happen as a result? What can countries do about it? 
There are obviously heated political opinions about each of these, but 
the issues are real, and it is critical to understand the underlying 
scientific knowledge about each if sound decisions are to be made. The 
assessment report focuses on the second of these questions.
    A national assessment of the potential impacts of climate change 
was called for in the 1990 legislation that established the U.S. Global 
Change Research Program (USGCRP). For several years, the research 
program focused on developing the basic scientific knowledge that the 
international scientific assessment process overseen by the 
Intergovernmental Panel on Climate Change (IPCC) depends on. The IPCC 
was jointly established by the World Meteorological Organization and 
the United Nations Environmental Programme in 1988. As scientific 
research has provided compelling evidence that climate change is in 
fact occurring, it has become increasingly clear that there is a need 
to understand what is at stake for natural resources and human well-
being in the U.S. In response to this need, in 1998, Dr. John H. 
Gibbons, then Science Advisor to the President, requested the USGCRP to 
undertake the national assessment originally called for in the 
legislation. Dr. Gibbons asked the USGCRP to investigate a series of 
important questions:

  <bullet> What are the current environmental stresses and issues for 
        the United States that form a backdrop for additional impacts 
        of climate change?

  <bullet> How might climate change and variability exacerbate or 
        ameliorate existing problems?

  <bullet> What are the priority research and information needs that 
        can better prepare policy makers for making wise decisions 
        related to climate change and variability? What information and 
        answers to what key questions could help decision-makers make 
        better-informed decisions about risk, priorities, and 
        responses? What are the potential obstacles to information 
        transfer?

  <bullet> What research is most important to complete over the short 
        term? Over the long term?

  <bullet> What coping options exist that can build resilience to 
        current environmental stresses, and also possibly lessen the 
        impacts of climate change? How can we simultaneously build 
        resilience and flexibility for the various sectors considering 
        both the short and long-term implications?

  <bullet> What natural resource planning and management options make 
        most sense in the face of future uncertainty?
  <bullet> What choices are available for improving our ability to 
        adapt to climate change and variability and what are the 
        consequences of those choices? How can we improve contingency 
        planning? How can we improve criteria for land acquisition?

    A variety of efforts emerged in response to Dr. Gibbons' charge.
    Over twenty workshops were held around the country, involving 
academics, business-people representing a range of industries including 
manufacturing, power generation and tourism, and people who work 
closely with land and water ecosystems including resource managers, 
ranchers, farmers, foresters and fishermen. Each workshop identified a 
range of issues of concern to stakeholders in those regions, many of 
them quite unrelated to climate change, per se. Most workshops were 
followed by the initiation of scientific, university-led regional 
studies, some of which have finished their work, and others of which 
are ongoing.
    In addition to these kind of ``bottom-up'' efforts, it was decided 
that it was also necessary to create a national-level synthesis of what 
is known about the potential for climate impacts for the U.S. as a 
whole, addressing the issues identified in the regional workshops and 
national studies. This synthesis obviously needed to build on the work 
that had begun to emerge from the subsequent regional and national 
studies, but also to draw on the existing scientific literature and 
analyses done with the most up-to-date ecological and hydrological 
models and data that could be obtained. The National Assessment 
Synthesis Team (NAST) was established by the National Science 
Foundation as an independent committee under the Federal Advisory 
Committee Act (FACA) specifically in order to carry out this second 
step. This committee is made up of experts from academia, industry, 
government laboratories, and non-governmental organizations (NGO's) 
(membership list is Attachment 1). In order to ensure openness and 
independence, all meetings of the NAST have been open to the public, 
all documents discussed in its meetings are available through the 
National Science Foundation, as are all the review comments already 
received and responses to them. This is perhaps out of the ordinary for 
a scientific study; but most scientific studies do not focus on issues 
of such broad and deep implications for American society, and about 
which there is such heated rhetoric.
    The NAST's first action was to publish a plan for the conduct of 
the national synthesis. In addition, five issues (agriculture, water, 
forests, health, and coastal and marine systems), out of the many 
identified, were later selected by the National Synthesis Assessment 
Team (NAST) to be topics for national studies. Carrying out this plan 
has been a major undertaking. The end result has been the production of 
a comprehensive two-volume National Assessment Report, available to the 
public for a 60-day comment period. The ``Foundation'' volume is more 
than 600 pages long, with more than 200 figures and tables, with 
analyses of the five national sectors, and 9 regions that together 
cover the entire U.S. It is extensively referenced, and a commitment 
has been made that all sources used in its preparation are open and 
publicly available. The ``Overview'' volume is about 150 pages long, 
written in a style that is more accessible to the lay public, and 
summarizes the Foundation in a way that we hope will be understandable 
and informative, and which we are confident is scientifically sound. 
Both documents have already been through extensive review. At the end 
of 1999, two rounds of technical peer review were undertaken, and 
during the past spring, an additional review by about 20 experts 
outside the assessment process was undertaken. Over 300 sets of 
comments have been received from scientists in universities, industry, 
NGO's, and government laboratories. The responses to all external 
comments have been described in comprehensive review memorandums. We 
are now in the final stage of the process, a 60 day public comment 
period specifically requested by Congress, after which final revisions 
will be done and the report submitted to the President and Congress, as 
called for in the original legislation.
    In order to ensure that the NAST has undertaken its charge well, an 
oversight panel was also established through the offices of the 
President's Council of Advisors on Science and Technology (membership 
list is Attachment 2). The oversight panel is chaired by Dr. Peter 
Raven, Director of the Missouri Botanical Garden and recently retired 
Home Secretary of the National Academy of Sciences, and Dr. Mario 
Molina, Professor of Atmospheric Chemistry at MIT, and recent Nobel-
prize winner for his research on stratospheric ozone depletion. Its 
membership, like the NAST's, is drawn from academia, industry, and 
NGO's. It has reviewed and approved of the plans for the assessment, 
reviewed each draft of the report, and reviewed the response of the 
NAST to all comments.
    What have been the results of this extraordinarily open process? 
What assumptions drive the analysis? What conclusions have been 
reached?
    It is important to realize that the national assessment does not 
attempt to predict exactly what the future will hold for the U.S. It 
has examined the potential implications of two primary climate 
scenarios, each based on the same assumptions about future ``business 
as usual'' global emissions of greenhouse gases that the IPCC has used 
for many of its analyses. The two climate scenarios were based on 
output from two different global climate models used in the IPCC 
assessment. They are clearly within the range of global annual average 
temperature changes shown by many such models, one near the low and one 
near the high end of the range. Both exhibit warming trends for the 
U.S. that are larger than the global average (Attachment 3). This is 
not surprising. For many years, one of the most robust results of 
global climate models has been that greater warming is expected in more 
northerly latitudes, and that land surfaces are expected to warm more 
than the global average. We have used assumptions that are entirely 
consistent with those used by the IPCC.
    These climate scenarios describe significantly different futures 
that are all scientifically plausible, given our current understanding 
of how the climate system operates. As importantly, they describe 
separate baselines for analysis of how natural ecosystems, agriculture, 
water supplies, etc. might change as a result. In order to investigate 
such changes, i.e. the potential impacts of climate changes, the report 
relies on up-to-date models, on empirical observations from the 
literature, on investigations of how these systems have responded to 
climate variability that has been observed over the past century in the 
U.S., and on the accumulated scientific knowledge that is available 
about the sensitivities of resources to climate, and about how the 
regions of the U.S. have and potentially could respond.
    One additional important point about the scenarios should be 
mentioned. The report does not ``merge'' the results of models that 
disagree; it explicitly avoids doing so. The best example of this is in 
the analysis of potential changes in precipitation, where the two 
models used to create the scenarios give quite different results for 
some areas of the U.S. We have chosen to highlight these differences 
and explain that regional-scale precipitation projections are much more 
uncertain compared with temperature, rather than attempting to merge 
the results or guess which is more likely. The knowledge that the 
direction of precipitation change in some areas is quite uncertain is 
valuable for planning purposes, and clearly represents an important 
research challenge. There is however, consistency among models and 
observations on other aspects of precipitation changes. For example, 
both models and observations show an increase in the proportion of 
precipitation derived from heavy and extreme events as the climate 
warms (Attachment 4). So, both types of information are pertinent to 
help with the identification of potential coping actions. In this 
respect, the report follows the procedure that the IPCC itself uses for 
its global impacts reports, each of which examines the potential 
impacts for entire continents.
    The U.S. national assessment presents the results for each scenario 
clearly, and then takes the important additional step of explicitly 
describing the NAST's scientific judgment about the uncertainty 
inherent in each result. Those results that are viewed to be robust are 
described in more terms; those viewed to be the result of poorly 
understood or unreconciled differences between models are described in 
more circumspect language. The lexicon of terms used to denote the 
NAST's greater or lesser confidence is explicitly described in the 
beginning of the Overview report. This helps ensure that the report 
does not mask important results by thoughtlessly merging models, or 
overstating the scientific capability for assessing potential impacts. 
Finally, the report begins to identify possible options for adaptation 
to this changing world. It does not do a complete analysis of the 
costs, benefits, or feasibility of these options however, which is a 
necessary next step for developing policies to address these issues.
    The report's draft key findings (as more fully described in 
Attachment 5) present important observations for all Americans:

     1. Increased warming. Assuming continued growth in world 
greenhouse gas emissions, the climate models used in this Assessment 
project that temperatures in the U.S. will rise 5-10+F (3-6+C) on 
average in the next 100 years.

     2. Differing regional impacts. Climate change will vary widely 
across the U.S. Temperature increases will vary somewhat from one 
region to the next. Heavy and extreme precipitation events are likely 
to become more frequent, yet some regions will get drier. The potential 
impacts of climate change will also vary widely across the nation.

     3. Vulnerable ecosystems. Ecosystems are highly vulnerable to the 
projected rate and magnitude of climate change. A few, such as alpine 
meadows in the Rocky Mountains and some barrier islands, are likely to 
disappear entirely, while others, such as forests of the Southeast, are 
likely to experience major species shifts or break up. The goods and 
services lost through the disappearance or fragmentation of certain 
ecosystems are likely to be costly or impossible to replace.

     4. Widespread water concerns. Water is an issue in every region, 
but the nature of the vulnerabilities varies, with different nuances in 
each. Drought is an important concern in every region. Floods and water 
quality are concerns in many regions. Snowpack changes are especially 
important in the West, Pacific Northwest, and Alaska.

     5. Secure food supply. At the national level, the agriculture 
sector is likely to be able to adapt to climate change. Overall, U.S. 
crop productivity is very likely to increase over the next few decades, 
but the gains will not be uniform across the nation. Falling prices and 
competitive pressures are very likely to stress some farmers.

     6. Near-term increase in forest growth. Forest productivity is 
likely to increase over the next several decades in some areas as trees 
respond to higher carbon dioxide levels. Over the longer term, changes 
in larger-scale processes such as fire, insects, droughts, and disease 
will possibly decrease forest productivity. In addition, climate change 
will cause long-term shifts in forest species, such as sugar maples 
moving north out of the U.S.

     7. Increased damage in coastal and permafrost areas. Climate 
change and the resulting rise in sea level are likely to exacerbate 
threats to buildings, roads, power lines, and other infrastructure in 
climatically sensitive places, such as low-lying coastlines and the 
permafrost regions of Alaska.

     8. Other stresses magnified by climate change. Climate change 
will very likely magnify the cumulative impacts of other stresses, such 
as air and water pollution and habitat destruction due to human 
development patterns. For some systems, such as coral reefs, the 
combined effects of climate change and other stresses are very likely 
to exceed a critical threshold, bringing large, possibly irreversible 
impacts.

     9. Surprises expected. It is very likely that some aspects and 
impacts of climate change will be totally unanticipated as complex 
systems respond to ongoing climate change in unforeseeable ways.

    10. Uncertainties remain. Significant uncertainties remain in the 
science underlying climate-change impacts. Further research would 
improve understanding and predictive ability about societal and 
ecosystem impacts, and provide the public with useful information about 
adaptation strategies.

    Given these findings it is clear that climate impacts will vary 
widely across the Nation, as one would expect for a country as large 
and ecologically diverse as the U.S. Natural ecosystems appear to be 
highly vulnerable to climate changes of the magnitude and rate which 
appear to be likely; some ecosystems surprisingly so. The potential 
impacts on water resources are an important issue in every region 
examined, although the nature of the concern is very different for the 
mountainous West than for the East. The potential for drought is a 
concern across the country. The nation's food supply appears secure, 
but there are very likely to be regional gains and losses for farmers, 
leading to a more complex picture on a region-by-region basis. Forests 
are likely to grow more rapidly for a few decades because of increasing 
carbon dioxide concentrations in the atmosphere, but it is unclear 
whether those trends will be maintained as the climate system itself 
changes, leading to other disturbances such as fire and pest outbreaks. 
However, the climate change itself will, over time, lead to shifts in 
the tree species in each region of the country, some of them 
potentially quite profound. Coastal areas in many parts of the U.S. and 
the permafrost regions of Alaska are already experiencing disruptions 
from sea-level rise and recent regional warming; these trends are 
likely to accelerate. Climate change will very likely magnify the 
cumulative impacts of other environmental stresses about which people 
are already concerned, such as air and water pollution, and habitat 
destruction due to development patterns. There are clearly links 
between human health, current climate, and air pollution. The future 
vulnerability of the U.S. population to the health impacts of climate 
change depends on our capacity to adapt to potential adverse changes. 
Many of these adaptive responses are desirable from a public health 
perspective irrespective of climate change. Future assessments need to 
consider climate change in the context of the suite of environmental 
stresses that we all face. Perhaps most importantly, the report 
acknowledges very clearly that scientific uncertainties remain, and 
that we can expect surprises as this uncontrolled experiment with the 
Earth's geochemistry plays out over the coming decades.
    We hope that the public comment period will indeed result in a 
broad discussion of this draft report. This is, after all, a topic of 
immense importance and broad significance for Americans. We invite 
those with the interest to do so to participate by obtaining the 
current draft (www.usgcrp.gov), and to submit their comments, concerns, 
and criticisms. Our interest is in being as open and transparent as 
possible about what we have concluded, the scientific integrity of the 
results, and why we think they are important for us all.

                                                       Attachment 1
               National Assessment Synthesis Team Members


Jerry M. Melillo, Co-chair
Ecosystems Center
Marine Biological Laboratory

Anthony C. Janetos, Co-chair
World Resources Institute

Thomas R. Karl, Co-chair
NOAA National Climatic Data Center

Robert Corell (from January 2000)
American Meteorological Society and
Harvard University

Eric J. Barron
Pennsylvania State University

Virginia Burkett
USGS, National Wetlands Research
  Center

Thomas F. Cecich
Glaxo Wellcome, Inc.

Katharine Jacobs
Arizona Department of Water
  Resources

Linda Joyce
USDA Forest Service

Barbara Miller
World Bank
                                                         Edward A. Parson (until January 2000)
M. Granger Morgan                                        Harvard University
Carnegie Mellon University


                                                       Attachment 2
 Independent Review Board of the President's Committee of Advisers on 
                     Science and Technology (PCAST)
Peter Raven, Co-chair
Missouri Botanical Garden and PCAST

Mario Molina, Co-chair
MIT and PCAST

Burton Richter
Stanford University

Linda Fisher
Monsanto

Kathryn Fuller
World Wildlife Fund

John Gibbons
National Academy of Engineering

Marcia McNutt
Monterey Bay Aquarium Research Institute

Sally Ride
University of California San Diego and PCAST

William Schlesinger
Duke University

James Gustave Speth
Yale University

Robert White
University Corporation for Atmospheric Research, and Washington, 
Advisory Group

                                                       Attachment 3
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Simulation of decadal average changes in temperature from leading 
climate models based on historic and projected changes in CO<INF>2</INF> 
and sulfate atmospheric concentrations. The heavy red and black lines 
indicate the primary models chosen for use by the National Assessment. 
For the 21st century the projected global temperature increase for the 
Hadley model is 4.9+F and 7.4+F for the Canadian model. The model with 
the smallest projected increase of global temperature is the Climate 
System Model at 3.6+F. By comparison, the projected increase in 
temperature for the 21st century over the contiguous U.S. is: Canadian, 
9.4+F; Hadley, 5.5+F; and the Climate System Model, 4.0+F.

------------------------------------------------------------------------
                                        Global                USA
------------------------------------------------------------------------
Hadley                            4.9F                5.5F
Canadian                          7.4F                9.4F
CSM                               3.6F                4.0F
------------------------------------------------------------------------

                                                       Attachment 4
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

These graphs of precipitation for the contiguous U.S. show both 
observed changes during the 20th Century and projected changes for the 
21st Century based on the Canadian Global Climate Model (Version 1) and 
the Hadley Climate Model (Version 2). As the charts demonstrate, the 
largest increases have been and are projected to be in the heaviest 
precipitation events, the days already receiving large amounts of 
precipitation.

                                                       Attachment 5
Summary
    Large impacts in some places. The impacts of climate change will be 
significant for Americans. The nature and intensity of impacts will 
depend on the location, activity, time period, and geographic scale 
considered. For the nation as a whole, direct economic impacts are 
likely to be modest. However, the range of both beneficial and harmful 
impacts grows wider as the focus shifts to smaller regions, individual 
communities, and specific activities or resources. For example, while 
wheat yields are likely to increase at the national level, yields in 
western Kansas, a key U.S. breadbasket region, are projected to 
decrease substantially under the Canadian climate model scenario. For 
resources and activities that are not generally assigned an economic 
value (such as natural ecosystems), substantial disruptions are likely.
    Multiple-stresses context. While Americans are concerned about 
climate change and its impacts, they do not think about these issues in 
isolation. Rather they consider climate change impacts in the context 
of many other stresses, including land-use change, consumption of 
resources, fire, and air and water pollution. This finding has profound 
implications for the design of research programs and information 
systems at the national, regional, and local levels. A true partnership 
must be forged between the natural and social sciences to more 
adequately conduct assessments and seek solutions that address multiple 
stresses.
    Urban areas. Urban areas provide a good example of the need to 
address climate change impacts in the context of other stresses. 
Although large urban areas were not formally addressed as a sector, 
they did emerge as an issue in most regions. This is clearly important 
because a large fraction of the U.S. population lives in urban areas, 
and an even larger fraction will live in them in the future. The 
compounding influence of future rises in temperature due to global 
warming, along with increases in temperature due to local urban heat 
island effects, makes cities more vulnerable to higher temperatures 
than would be expected due to global warming alone. Existing stresses 
in urban areas include crime, traffic congestion, compromised air and 
water quality, and disruptions of personal and business life due to 
decaying infrastructure. Climate change is likely to amplify some of 
these stresses, although all the interactions are not well understood.
    Impact, adaptation, and vulnerability. As the Assessment teams 
considered the negative impacts of climate change for regions, sectors, 
and other issues of concern, they also considered potential adaptation 
strategies. When considered together, negative impacts along with 
possible adaptations to these impacts define vulnerability. As a 
formula, this can be expressed as vulnerability equals negative impact 
minus adaptation. Thus, in cases where teams identified a negative 
impact of climate change, but could not identify adaptations that would 
reduce or neutralize the impact, vulnerability was considered to be 
high. A general sense emerged that American society would likely be 
able to adapt to most of the impacts of climate change on human systems 
but that the particular strategies and costs were not known.
    Widespread water concerns. A prime example of the need for and 
importance of adaptive responses is in the area of water resources. 
Water is an issue in every region, but the nature of the 
vulnerabilities varies, with different nuances in each. Drought is an 
important concern in every region. Snowpack changes are especially 
important in the West, Pacific Northwest, and Alaska. Reasons for the 
concerns about water include increased threats to personal safety, 
further reduction in potable water supplies, more frequent disruptions 
to transportation, greater damage to infrastructure, further 
degradation of animal habitat, and increased competition for water 
currently allocated to agriculture.
    Health, an area of uncertainty. Health outcomes in response to 
climate change are highly uncertain. Currently available information 
suggests that a range of health impacts is possible. At present, much 
of the U.S. population is protected against adverse health outcomes 
associated with weather and/or climate, although certain demographic 
and geographic populations are at greater risk. Adaptation, primarily 
through the maintenance and improvement of public health systems and 
their responsiveness to changing climate conditions and to identified 
vulnerable subpopulations should help to protect the U.S. population 
from adverse health outcomes of projected climate change. The costs, 
benefits, and availability of resources for such adaptation need to be 
considered, and further research into key knowledge gaps on the 
relationships between climate/weather and health is needed.
    Vulnerable ecosystems. Many U.S. ecosystems, including wetlands, 
forests, grasslands, rivers, and lakes, face possibly disruptive 
climate changes. Of everything examined in this Assessment, ecosystems 
appear to be the most vulnerable to the projected rate and magnitude of 
climate change, in part because the available adaptation options are 
very limited. This is important because, in addition to their inherent 
value, they also supply Americans with vital goods and services, 
including food, wood, air and water purification, and protection of 
coastal lands. Ecosystems around the nation are likely to be affected, 
from the forests of the Northeast to the coral reefs of the islands in 
the Caribbean and the Pacific.
    Agriculture and forestry likely to benefit in the near term. In 
agriculture and forestry, there are likely to be benefits due to 
climate change and rising CO<INF>2</INF> levels at the national scale 
and in the short term under the scenarios analyzed here. At the 
regional scale and in the longer term, there is much more uncertainty. 
It must be emphasized that the projected increases in agricultural and 
forest productivity depend on the particular climate scenarios and 
assumed CO<INF>2</INF> fertilization effects analyzed in this 
Assessment. If, for example, climate change resulted in hotter and 
drier conditions than projected by these scenarios, both agricultural 
and forest productivity could possibly decline.
    Potential for surprises. Some of the greatest concerns emerge not 
from the most likely future outcomes but rather from possible 
``surprises.'' Due to the complexity of Earth systems, it is possible 
that climate change will evolve quite differently from what we expect. 
Abrupt or unexpected changes pose great challenges to our ability to 
adapt and can thus increase our vulnerability to significant impacts.
    A vision for the future. Much more information is needed about all 
of these issues in order to determine appropriate national and local 
response strategies. The regional and national discussion on climate 
change that provided a foundation for this first Assessment should 
continue and be enhanced. This national discourse involved thousands of 
Americans: farmers, ranchers, engineers, scientists, business people, 
local government officials, and a wide variety of others. This unique 
level of stakeholder involvement has been essential to this process, 
and will be a vital aspect of its continuation. The value of such 
involvement includes helping scientists understand what information 
stakeholders want and need. In addition, the problem-solving abilities 
of stakeholders have been key to identifying potential adaptation 
strategies and will be important to analyzing such strategies in future 
phases of the assessment.
    The next phase of the assessment should begin immediately and 
include additional issues of regional and national importance including 
urban areas, transportation, and energy. The process should be 
supported through a public-private partnership. Scenarios that 
explicitly include an international context should guide future 
assessments. An integrated approach that assesses climate impacts in 
the context of other stresses is also important. Finally, the next 
assessment should undertake a more complete analysis of adaptation. In 
the current Assessment, the adaptation analysis was done in a very 
preliminary way, and it did not consider feasibility, effectiveness, 
costs, and side effects. Future assessments should provide ongoing 
insights and information that can be of direct use to the American 
public in preparing for and adapting to climate change.

    The Chairman. Thank you for being here.
    Dr. Janetos.

STATEMENT OF DR. ANTHONY C. JANETOS, SENIOR VICE PRESIDENT FOR 
               PROGRAM, WORLD RESOURCES INSTITUTE

    Dr. Janetos. Mr. Chairman, thank you for the opportunity to 
discuss the national assessment of potential impacts of climate 
change in the U.S.
    There are really three questions about climate change that 
have dominated many of the public and scientific discussions: 
first, how much climate change is going to occur, second, what 
might happen as a result, and third, what can countries do 
about it?
    The purpose of the national assessment is to focus only on 
the second of these questions. That is, to address the question 
of, so what, with our best understanding of the underlying 
science, and then to address the questions of major 
uncertainties in order to make well-reasoned recommendations 
for future research.
    The national assessment was called for in the original 
enabling legislation in 1990 for the U.S. global change 
research program. In 1997, Dr. John Gibbons, then Science 
Advisor to the President, requested the global change research 
program to undertake the national assessment focusing on 
understanding other environmental stresses and issues within 
which climate change impacts might occur, whether climate 
change and variability might exacerbate or ameliorate existing 
problems, what options for coping might exist, and what 
research is most important to complete over both the short and 
the longer term.
    A variety of efforts emerged in response to Dr. Gibbons' 
charge. First was a substantial bottom-up effort. Over 20 
workshops were held around the country, involving a broad range 
of stakeholders, academics, farmers and ranchers, 
businesspeople, land managers, people from every walk of life.
    Each workshop identified a range of issues of concern 
within their regions. Many of these were followed by the 
initiation of scientific studies, some of which have finished 
their work and have been published, others of which are 
ongoing.
    At the same time, it was thought to be necessary to create 
a companion but independent effort to create a national level 
synthesis of what is known for the U.S. as a whole, addressing 
the issues that were raised in workshops, and addressing issues 
that have been raised in national studies of several important 
sectors.
    This national study was viewed to build on work that has 
been done and published, on the published scientific 
literature, and on analyses that were to be done with the most 
up-to-date environmental data and models that could be 
obtained. All sources that were used in the national assessment 
and the national study were to be documented and to be 
available so that this study would present the best snapshot at 
this time of our understanding, using the best available 
information.
    The national assessment synthesis team, which Mr. Karl, Dr. 
Melillo and I co-chair, was chartered under the Federal 
Advisory Committee Act specifically to carry out the national 
study. Its membership is drawn from academic and research 
institutions from industry, from nongovernmental organizations, 
and government research laboratories.
    The first thing that we did was to publish a plan for the 
conduct of the national synthesis and select five issues for 
national analysis in addition to the work which Tom has just 
described on the different regions of the U.S. This plan was 
published in 1998 and has been available on the Internet.
    The products of our work is now in two volumes. The first 
of these we call the foundation volume. It is over 600 pages 
long, with more than 200 figures and tables. It is extensively 
referenced and, as I mentioned, we have made the commitment 
that all of the sources, of which there are thousands used in 
it, are documented and are available. These are basically the 
same guidelines as the Intergovernmental Panel on Climate 
Change has used for the accessibility of source material.
    The second volume we have called the overview. It is 
written more in a style for the general public. It is 
substantially shorter, about 150 pages long and extensively 
illustrated, and is a summary of the foundation document.
    Both of these volumes have already undergone significant 
review. At the end of 1999 and the beginning of this year we 
went through two rounds of technical peer review. Subsequent to 
that, this past spring we went through an additional review by 
about 20 independent experts. We have received over 300 sets of 
comments and have made a commitment to document our responses 
to external comments that we have received.
    In addition, we have written an overview memo summarizing 
our responses to major comments. We are now approximately half-
way through a 60-day public comment period that was 
specifically requested by the Congress. When it ends, we 
anticipate responding to the additional comments we will have 
received, as we have done before, and putting the report in 
final form in order to be submitted to the President and 
Congress, as called for in the original legislation.
    Throughout, the national assessment synthesis team has been 
the beneficiary of oversight review and guidance from an 
oversight panel which was established through the offices of 
the President's Council of Advisors on Science and Technology, 
chaired by Dr. Peter Raven and Dr. Mario Melina.
    One thing I would like to emphasize in closing is that it 
is important to remember that the national assessment does not 
attempt to predict exactly what the future will hold for the 
U.S. It has examined the potential implications of two primary 
climate scenarios, but has used many other data sets as well. 
That is, it uses our best scientific understanding of 
ecosystems, hydrologic systems, agriculture, forestry, and so 
on, to explore the different consequences of scientifically 
plausible futures.
    We explicitly discuss uncertainty in the underlying 
science. In fact, throughout the assessment we have 
consistently used language describing our scientific confidence 
in the results and findings so that the reader can understand 
when we are very confident of our findings and when we are less 
so.
    Thank you very much.
    The Chairman. Thank you very much. Dr. Schmitt.

 STATEMENT OF DR. RAYMOND W. SCHMITT, SENIOR SCIENTIST, WOODS 
                HOLE OCEANOGRAPHIC INSTITUTIONS

    Dr. Schmitt. Thank you, Mr. Chairman. I am a physical 
oceanographer. In the past 25 years I have averaged about 1 
month a year at sea on research cruises. In the past 10 years I 
have averaged about 1 month a year working on committees 
concerned with the role of the oceans in climate.
    The thrust of my statement is that the oceans have a very 
important role to play in climate, and that we are not doing a 
very good job at either modeling the role of the oceans in 
climate predictions, nor are we properly monitoring the state 
of the ocean in order to make these predictions possible.
    In the past few years oceanographers have done a large-
scale survey of the state of the world ocean. We called it the 
World Ocean Circulation Experiment. It was funded by the 
National Science Foundation, and what we found was quite 
interesting.
    In most areas--not all, but in most areas, deep waters had 
warmed significantly since the last time a major survey had 
been done in the fifties, so we are seeing global warming in 
the ocean. It is real, and we are finding it in the ocean and, 
in fact, the fact that we find it so deep in the ocean has been 
a surprise for many climate modelers, because the models they 
use have a very slow responding ocean. It is more like lava or 
concrete than the water that we know.
    So oceanographers have a very different view of the ocean. 
We see a more active agent of climate change.
    The Chairman. Why would it warm in----
    Dr. Schmitt. So deep?
    The Chairman. Yes.
    Dr. Schmitt. Well, it is quite interesting. The ocean 
interacts with the atmosphere at high latitudes, and the water 
can sink quite deeply. Up in the Labrador Sea, up in the seas 
off Greenland and Iceland, we call this deep convection, and 
this deep convection is how the ocean changes temperature, how 
it gives heat to the atmosphere and changes its own internal 
temperature, and this whole process--we call it the 
thermohaline circulation--is very important to transporting 
heat to high latitudes, for keeping Europe warm. The fact that 
England has a very moderate climate is due to this thermohaline 
circulation.
    Well, one of the very exciting things that the 
paleoceanographers have found is that this circulation shut off 
at times in the past, when that water got too fresh. At the end 
of the last glaciation, about 12,000 years ago, there was a lot 
of fresh water coming from the melting glaciers. It shut off 
thermohaline circulation because adding fresh water makes the 
water lighter and it cannot sink, so then no heat was carried 
northward, Europe got very cold, and the ice ages came back for 
about 1,000 years.
    The striking thing is that this change happened in a couple 
of decades, in the data that they have obtained from the ice 
core and in the sedimentary record at the bottom of the ocean. 
Some climate models predict an increase in high latitude 
rainfall due to the global warming. Warm air carries more water 
than cold air, and they have projected a shutdown in this 
thermohaline circulation. That would be a very significant 
change that could occur very rapidly.
    Now, the other thing that we found in the last few years is 
that the ocean has certain temperature patterns that lock in 
specific climate phenomena. We all know about El Nino and la 
nina. That is warm water sloshing back and forth in the 
Pacific. Well, there is another oscillation called the North 
Atlantic oscillation, that seems to be controlled by the 
patterns of warm water moving around the North Atlantic.
    We are at the stage technologically where we can make 
better measurements of these deep temperature patterns in the 
ocean with autonomous probes, floats that are like weather 
balloons for the ocean. They drift at depth, they inflate a 
small bladder every 10 days, come to the surface and obtain a 
profile of temperature and salinity on the way up, send that 
data to a satellite, and then resubmerge for another 10-day 
drift.
    From this we get the heat content of the ocean, we find out 
its salt content, and therefore whether it is likely to 
continue deep convecting in the winter. These things will help 
us to gain the ability to predict climate for 5 to 10 years in 
advance. We find this a very exciting research possibility.
    The Chairman. What are you finding out?
    Dr. Schmitt. Well, the hope that we are holding out is that 
when we have enough data coming in from these new observation 
systems, and enough understanding of these processes, that we 
will be able to predict climate with greater confidence than we 
have now. Right now there is a great deal of uncertainty about 
all of these modes of operation.
    The Chairman. When will you be able to start making these 
predictions?
    Dr. Schmitt. Prediction is a dangerous game. There is a 
program called Argo we are trying to get funded.
    The Chairman. Yes.
    Dr. Schmitt. We hope to have that in place in full 
operation in about 5 years, and I would think it would really 
start to have a significant effect on climate predictions 5 
years from now.
    That is the basic thrust of my statement, and I thank you 
for the opportunity to present this to the Committee.
    [The prepared statement of Dr. Schmitt follows:]

    Prepared Statement of Dr. Raymond W. Schmitt, Senior Scientist, 
                 Woods Hole Oceanographic Institutions
                      The Ocean's Role in Climate

    My name is Raymond Schmitt, I am a Senior Scientist in the 
Department of Physical Oceanography at the Woods Hole Oceanographic 
Institution. My research interests include the ocean's role in climate, 
small-scale mixing processes, the global water cycle, and 
instrumentation for a global ocean observing system. I have served on a 
number of national and international committees concerned with climate, 
including the Atlantic Climate Change Program Science Working Group, 
the Ocean Observing System Development Panel, and the Climate 
Variability (CLIVAR) Science Steering Group, and am a contributing 
author to the IPCC Third Assessment Report.
    The thrust of my comments today is that the crucial role of the 
oceans in climate has not been sufficiently acknowledged in most 
research on climate change to date, including the National Climate 
Assessment Report under discussion here. It was a tradition of the 
climate modeling community to treat the ocean as a shallow swamp; a 
source of moisture but playing no role in heat transport and storage. 
We now know this to be a significant error, the oceans are an equal 
partner with the atmosphere in transporting heat from the equator to 
the poles, and a reservoir of heat and water that overwhelmingly dwarfs 
the capacity of the atmosphere.
A few facts about

The Oceans:
        Cover 70% of the surface of the Earth.

        Have 1,100 times the heat capacity of the atmosphere
          (99.9% of the heat capacity of the Earth's fluids)

        Contain 90,000 times as much water as the atmosphere
          (97% of the free water on the planet)

        Receive 78% of global precipitation

A quote from Arthur C. Clarke gets it right:

``How inappropriate to call this planet Earth when clearly it is 
Ocean''--Nature, v. 344, p. 102, 1990.

    New evidence for the essential role of the oceans in climate is 
coming out of the recent World Ocean Circulation Experiment (WOCE), 
supported by the National Science Foundation. A globe-spanning set of 
ship-based observations in the '90s revealed that the depths of the 
ocean had warmed significantly since previous observations in the '50s. 
In fact, about half the ``missing'' greenhouse warming has been found 
in the ocean. It was missing because models had projected a larger 
increase than had been observed. It now appears this was because they 
had not properly accounted for the capacity of the oceans to store 
large quantities of heat on short timescales. In fact, it is easy to 
calculate that if all of the extra heat due to the greenhouse change in 
the radiation balance were to be deposited in the deep ocean, it would 
take 240 years for it to rise 1+C. Thus, monitoring the ocean's 
patterns of heat storage is absolutely essential for understanding 
global warming, yet we have no system for such observations.
    But the oceans do more than simply delay global warming. Research 
over the past twenty years has brought a growing appreciation of how 
the slow movement of warm and cold patches of ocean water can affect 
our weather for months at a time. The alternating influence of El Nino 
and la nina are now well known to the public and are rashly blamed for 
any type of unusual weather. These 3-5 year period disruptions in 
weather patterns are caused by the movement of warm water in the 
tropical Pacific, and are now predictable up to a year in advance 
because of a special monitoring network of ocean buoys maintained 
there. The influence of El Nino on U.S. weather is well publicized, but 
it actually explains only a small part of the variation in temperature 
and rainfall over the United States. Some other natural ocean climate 
cycles known as the Pacific Decadal Oscillation (PDO) and the North 
Atlantic Oscillation (NAO) can explain much more of the variability in 
winter-time weather than El Nino. (Figure 1.). The NAO in particular 
has much more impact on the eastern half of the United States than El 
Nino.
    Exciting new findings suggest that the ocean controls the timescale 
of the NAO, thus holding out the hope that these weather patterns will 
be predictable when sufficient ocean observations become available.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Figure 1. The correlation of U.S. winter-time climate with El Nino, PDO 
and NAO over a 35 year period. If we could predict these phenomena in 
advance, then the square of the numbers represented by the colors gives 
the winter climate variability that is potentially predictable. That 
is, white areas would have no predictability, but in the brown areas 
36% or more of winter climate changes could be predicted. However, we 
do not yet have predictive capabilities for PDO or NAO. If predictions 
are to be made we will require a greatly expanded ocean observing 
system.

    Recent research indicates that the NAO's changes in atmospheric 
pressure patterns over the Atlantic are linked to the slow variation in 
water temperatures, as the ocean currents rearrange the warm and cold 
ocean patterns that serve to guide the atmosphere in its preferred 
modes of oscillation. Only the ocean has the long-term memory to 
provide the decadal time scales observed in the NAO. An understanding 
of these natural modes of climate variation is essential for accurate 
predictions of the regional trends in U.S. climate. That the two models 
examined in the Climate Assessment report should differ so widely in 
prediction of future U.S. precipitation is no surprise. Models are only 
a repository for what we think we know, and an understanding of the 
important oceanic phenomena such as PDO and NAO has not yet been 
achieved. In order to understand these phenomena we need to observe the 
motion of the deep warm and cold patches that give the ocean its multi-
decadal memory, and we need to sustain those observations through a few 
cycles of the oscillations. In contrast to the 1,200 records of U.S. 
land temperature used to examine climate trends in the report, we have 
only three sites with anything like a continuous deep record in all of 
the North Atlantic! For these few sites with rather short records, an 
observation once a month is often the best we have. This observation 
system is woefully inadequate. It is obvious that the ocean is the 
long-term memory of the Earth's climate system yet we persist in 
ignoring it. Some think it sufficient to look at the surface of the 
ocean with a satellite and try to model the interior. However, 
satellites can tell us nothing about the deep interior temperatures 
that influence winter-time climate.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Figure 2. The North Atlantic Oscillation (NAO). Its ``high index'' 
state is shown on the left, this corresponds to particularly high 
atmospheric pressure over the Azores, an intense low over Iceland. 
Ocean winds are stronger and winters milder in the eastern U.S. When 
the NAO index is low, ocean winds are weaker and the U.S. winter more 
severe. Changes in ocean temperature distributions are also observed.

The Water Cycle and Thermohaline circulation
    Also, satellites can tell us nothing about the salt content of the 
ocean, which reflects the workings of the water cycle. There is an 
increasing attention to the importance of the water cycle in global 
change; for most communities drought or flood are more pressing 
challenges than a few degrees of warming. However, there has been 
little recognition that most of the water cycle occurs over the oceans. 
It would take a diversion of only 1% of the rainfall falling on the 
Atlantic to double the discharge of the Mississippi River. Water 
travels quickly through the atmosphere, spending only about 10 days on 
a short ride from one spot to another. Water molecules spend thousands 
of years on the slow return flow in the ocean. But the process of water 
leaving the surface of the ocean, and thereby changing its salt content 
and density, drives an interior flow many times larger than the flux of 
water due to evaporation and precipitation alone. This ``thermohaline 
circulation'' is a key element of the climate system, as it is 
responsible for most of the ocean's heat transport from equator to 
pole. When salty water gives up its heat to the atmosphere, it can 
become dense enough to sink to the bottom of the ocean, thereby keeping 
making room for more warm water to come north for cooling. The North 
Atlantic is the saltiest ocean and the most active site for such ``deep 
convection''. However, if it becomes too fresh from rainfall the 
surface waters cannot sink and the flow of warm water stops.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Figure 3. The influence of salt content (salinity) on the process of 
deep convection. Normally, winter cooling at the surface causes deep 
vertical mixing which releases much heat to the atmosphere (left). When 
fresher water lies at the surface because of rain fall or ice melt, the 
deep convection is prevented and only a shallow surface layer provides 
heat to the air above (right). Thus, salinity is now considered a key 
variable for climate studies.

    Records from ocean sediments of the fossils of marine life indicate 
that this has happened many times in the past, with dramatic 
consequences for climate over a large area. The most recent event was 
about 12,000 years ago, when the freshwater from melting glaciers shut 
down the thermohaline circulation in the North Atlantic. This had 
dramatic consequences for the North Hemisphere, returning much of it to 
glacial conditions for 1000 years. The data indicate that this happened 
rapidly, in only a decade or two. Some models predict that such abrupt 
climate change could happen again as the water cycle intensifies with 
future global warming. However, such transitions in the thermohaline 
circulation have been shown to depend on the rate of interior mixing in 
the ocean, and we know that this is incorrectly treated in the present 
generation of climate models.
Model Deficiencies
    In fact, oceanographers have many complaints about how poorly 
climate models simulate the ocean. Because of computer limitations, 
they must treat it as a very viscous fluid, more like lava or concrete 
than water. Such models fail to simulate the real ocean's changes in 
deep temperatures. We know that the ``sub-grid-scale'' 
parameterizations for mixing processes are incorrect, reflecting none 
of the observed spatial variations or differences between heat and 
salt. This mixing drives the interior flows in the ocean. We know that 
the processes by which ocean currents give up their momentum are 
incorrectly treated. And these are not problems that will quickly yield 
to increased spatial and temporal resolution in the computer models. 
Even if computer power continues to increase by an order of magnitude 
every 6 years, it will be over 160 years \1\ before models have the 
resolution necessary to simulate the smallest ocean mixing processes! 
Society cannot afford to wait that long. We will not come to an 
understanding of climate by more computational cycles of models with 
incorrect physics. We require a systematic study of the sub-grid-scale 
processes in the ocean. This is noticeably lacking in our current 
Global Change Research Program.
---------------------------------------------------------------------------
    \1\ It will take a factor of 10\8\ improvement in 2 horizontal 
dimensions (100 km to 1 mm, the salt dissipation scale), a factor of 
10\6\ in the vertical dimension (~10 levels to 10\7\) and ~10\5\ in 
time (fraction of a day to fraction of a second); an overall need for 
an increase in computational power of ~10\27\. With an order of 
magnitude increase in computer speed every 6 years, it will take 162 
years to get adequate resolution in computer models of the ocean.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Figure 4. The operation of a profiling float for the ARGO program. 
These autonomous probes can provide unprecedented amounts of data from 
the interior ocean at a modest cost. Knowledge of the interior ocean 
temperature is necessary because these waters interact with the 
---------------------------------------------------------------------------
atmosphere every winter through the process of deep convection.

Observing Deficiencies
    While we have in place a system for monitoring El Nino, we have no 
such ability to observe the motions of thermal anomalies in the mid- 
and high-latitude oceans. Nor do we monitor the salt content of ocean 
currents, to determine the potential for deep convection or to help 
understand the vast water cycle over the oceans. But new technology, 
the vertically profiling ARGO float (Figure 4.), promises to give us 
the data we need to begin to understand this largest component of the 
global water cycle. These are like weather balloons for the ocean, 
drifting at depth for 10 days then rising to the surface to report 
profiles of temperature and salinity to a satellite. They then 
resubmerge for another 10 day drift, a cycle to be repeated 150 times 
or more. The distance traveled between surfacings provides a measure of 
the currents at the depth of the drift. The ARGO program (http://
www.argo.ucsd.edu/) is an international plan to maintain a global 
distribution of ~3000 floats as a core element of a Global Ocean 
Observing System (Figure 5.). Other parts of the system involve fixed 
sites with moored buoys and underwater profilers that record 
temperature and salinity all the way to the bottom of the ocean. These 
new technologies will give us the data we need to begin to decipher the 
complex climate phenomena we know to be operating in the ocean. Science 
is the process of testing ideas against observations, and failure to 
make the observations is an abandonment of the scientific process.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Figure 5. The surface salinity of the global ocean is represented by 
the colors, with red being the saltiest and blue/purple the freshest. 
3000 random dots, representing possible ARGO float positions, are seen 
to provide good sampling of the large-scale patterns of salinity 
variation. The Atlantic Ocean is seen to be saltiest, which helps 
explain why deep convection is especially likely there, and its 
important role in the thermohaline circulation.

What Can Congress Do?
    1. Support fundamental research into the processes that govern the 
ocean's role in climate. This includes the basic oceanic research 
programs at NSF and ONR, and international programs like CLIVAR.
    2. Make a substantial and long-term commitment to the creation of 
a Global Ocean Observing System. Fund the ARGO program at NOAA (Ocean 
Observations component of Climate Observations and Services) and the 
ocean observing satellites of NASA.
Summary:
    Policy makers would like climate scientists to produce firm 
predictions. However, they must always remember that science is the 
process of testing ideas against facts and access to quantitative data 
is essential to the process. The ocean is a crucial element of the 
climate system, yet its ``subgrid-scale'' processes are too poorly 
understood and its basic structure too poorly monitored, to provide 
much confidence in the details of present day predictions. The National 
Climate Assessment Report is a good faith effort to assess the effects 
of global warming on U.S. climate; the regional disagreements of the 
two available models are to be expected, given our poor understanding 
of the ocean. Global warming due to the effect of greenhouse gases on 
the radiation balance is as certain as the law of gravity, but the 
issues of how rapidly heat is sequestered in the oceans, its impact on 
the water cycle, and the important regional variations in climate, 
remain very challenging research questions.
    Climate prediction is a hard problem, but appears to be tractable. 
An abundance of evidence indicates that the key to long-term prediction 
is in the workings of the ocean, which has 99.9% of the heat capacity 
of Earth's fluids. It is the heart of the climate ``beast,'' the 
atmosphere its rapidly waving tail, with only 0.1% of the heat 
capacity. Let us get to the heart of the matter, with an unprecedented 
new look at the ocean. We have the technical capabilities. The cost is 
modest. The payoff is large. The society that understands long-term 
climate variations will realize tremendous economic benefits with 
improved predictions of energy demand, water resources and natural 
hazards, and it will make wiser decisions on issues affecting the 
habitability of the planet, such as greenhouse gas abatement.

    The Chairman. Thank you very much. Dr. Singer.

    STATEMENT OF DR. S. FRED SINGER, PROFESSOR EMERITUS OF 
  ENVIRONMENTAL SCIENCES, UNIVERSITY OF VIRGINIA, AND FORMER 
           DIRECTOR OF U.S. WEATHER SATELLITE SERVICE

    Dr. Singer. Mr. Chairman, I have researched and published 
mainly in atmospheric and space physics over the last years.
    I am professor emeritus of environmental sciences at the 
University of Virginia, and president of the Science and 
Environmental Policy Project, which is a nonprofit, nonpartisan 
research group of scientists. We all work pro bono, without 
salary, and we do not solicit money from industry or 
government, so we are fairly independent. We speak our minds on 
many issues as we see fit. We are mainly interested in making 
sure that the science underlying the various policies, 
environmental policies is correct and sound.
    The reason I have a skeptical view on the climate science 
underlying the assessment is because it does not fit with the 
evidence. My testimony concerns just three pieces of evidence, 
which I will briefly outline.
    The first statement I make is that there is no appreciable 
climate warming today. I repeat, there is no appreciable 
climate warming. This puts me at odds with many of my 
colleagues, I realize that, including my distinguished 
colleague, Tom Karl, but I hope that I can convince him and 
others that the evidence supports what I have to say.
    I think the evidence that the climate has not warmed in the 
last 2 decades is overwhelming. I have four pieces of evidence. 
The weather satellites, with which I am very familiar, do not 
show any appreciable warming of the atmosphere in the last 20 
years. In fact, if you take out 1998, the El Nino year, there 
is even a slight cooling of the atmosphere in the last 20 
years.
    There has been long debate about this, but fortunately the 
National Research Council of the National Academy of Sciences 
has published a report this year in which they essentially 
endorse the satellite data, and the fact that the atmosphere 
has not warmed in the last 20 years.
    Weather balloons carrying radios get exactly the same 
result, and these are independent measurements of the 
atmosphere. They also show no appreciable warming in the last 
20 years.
    The third piece of evidence is the temperature record for 
the United States as produced by NOAA and also published by 
NASA. The temperature record for the United States shows that 
the temperature has not warmed appreciably since about 1940.
    Now, the thermometers do show a global warming. It means 
that there must be warming going on somewhere outside of the 
United States, and outside of Western Europe, because neither 
one of those two networks shows any appreciable warming.
    This is very puzzling, and it is possible that the 
thermometers are not giving correct readings, or that they are 
contaminated in some way. The warming seems to occur mainly in 
Northwestern Siberia and in subpolar regions of Alaska and 
Canada. But when one checks proxy data, like tree rings, ice 
cores, and things of that sort, which also are a way of 
measuring temperature, they show no warming since 1940, so the 
thermometer data that do show a warming are the odd man out, 
and we need to do the necessary research to find out why that 
is.
    As of now, I would say that there is no appreciable warming 
in the last 20 years and, by the way, if there is no warming in 
the last 20 years, this means that this is not the warmest 
century in the last 1,000 years. In fact, we believe it was 
warmer 1,000 years ago than it is today. And this is not the 
warmest decade in the last 1,000 years, either.
    So you see, we have a chance here to have a good debate on 
these issues, but this is probably more appropriate for the 
American Meteorological Society meetings that we are going to 
be attending soon.
    My second point relates to the regional changes in 
temperature, precipitation, and soil moisture. After all, this 
is the important thing, because all of the impacts of climate 
change are based on what is actually happening in the region. 
My belief is, and I believe everyone would agree, that to 
predict regional changes is beyond the state-of-the-art of 
climate models.
    Climate models cannot even predict properly the global 
changes, but to predict regional changes is practically 
impossible, and we have proof of that. The proof is actually in 
the report itself, the report that Dr. Janetos has just 
referred to. The two climate models that are used in the report 
give opposite results in 9 of the 18 regions that have been 
studied.
    For example, when it comes to rainfall the report shows the 
Dakotas losing 85 percent of their current rainfall in one 
model, while the second model shows a gain of 75 percent. These 
opposite results occur in 9 cases out of 18, and in some other 
cases the results show a huge difference.
    The same is also true with soil moisture. The Canadian 
model that was used predicts a drier Eastern United States. The 
British model that was used predicts a wetter Eastern United 
States.
    So we conclude that the model results are not credible, and 
therefore we believe that the conclusions that are drawn about 
the impact of these climate changes are interesting exercises 
but should not be taken too seriously.
    My third point: I want to discuss sea level rise. Sea level 
rise is widely feared, but also very much misunderstood. Most 
people think the sea level rose in the last century because 
temperatures rose in the last century. That is not so. Sea 
level has been rising for about 15,000 years. Sea level rose by 
400 feet in the last 15,000, and the reason it rose is because 
the ice melted at the end of the last Ice Age.
    First, the ice melted in North America and Northern Europe, 
and that caused a very rapid rise in sea level. We can actually 
measure it. It is about 80 inches per century, as measured.
    Once that ice was gone, the melting slowed down. But the 
melting still continues, though, in the Antarctic, but now it 
is the West Antarctic ice sheet that is melting slowly, and has 
been melting for 15,000 years, and this slow melting of the 
West Antarctic ice sheet amounts to about 7 inches per century 
of sea level rise.
    This is the sea level rise that is going on right now. This 
will continue for another 6,000 years, unless another Ice Age 
intervenes. But assuming that we do not get another Ice Age, we 
will have sea level rise going on for another 6,000 years no 
matter what we do.
    We cannot affect this in any way. We cannot stop the tides, 
we cannot stop continental drift, we cannot stop the Antarctic 
ice sheet from melting. It is just going to continue its slow-
melting process. It has to do with the fact that it is warmer 
now than it was 15,000 years ago.
    Finally: The bottom line of all of this is that the 
scientific evidence does not support the results of the 
National Assessment. It also tells us that we should be doing 
serious research on both atmospheric and oceanic processes, and 
that this research needs to be carried out much further before 
we can have confidence in any assessment report.
    My conclusion: The National Assessment should definitely 
not be used to justify any irrational or unscientific energy 
and environmental policies, and that advice I think is 
particularly relevant to the forthcoming Presidential debates 
and campaigns.
    Thank you very much.
    [The prepared statement of Dr. Singer follows:]

    Prepared Statement of Dr. S. Fred Singer, Professor Emeritus of 
Environmental Sciences, University of Virginia, and Former Director of 
                     U.S. Weather Satellite Service
Mr. Chairman, Ladies and Gentlemen,

    My name is Fred Singer. I am Professor Emeritus of Environmental 
Sciences at the University of Virginia and the founder and president of 
The Science & Environmental Policy Project (SEPP) in Fairfax, Virginia, 
a non-partisan, non-profit research group of independent scientists. We 
work without salaries and are not beholden to anyone or any 
organization. SEPP does not solicit support from either government or 
industry but relies on contributions from individuals and foundations.
    We hold a skeptical view on the climate science that forms the 
basis of the National Assessment because we see no evidence to back its 
findings; climate model exercises are NOT evidence. Vice President Al 
Gore keeps referring to scientific skeptics as a ``tiny minority 
outside the mainstream.'' This position is hard to maintain when more 
than 17,000 scientists have signed the Oregon Petition against the 
Kyoto Protocol because they see ``no compelling evidence that humans 
are causing discernible climate change.''
    Others try to discredit scientific skeptics by lumping them 
together with fringe political groups. Such ad hominem attacks are 
deplorable and have no place in a scientific debate. To counter such 
misrepresentations, I list here qualifications relevant to today's 
hearing.
Relevant Background
    I hold a degree in engineering from Ohio State and a Ph.D. in 
physics from Princeton University. For more than 40 years I have 
researched and published in atmospheric and space physics. I received a 
Special Commendation from President Eisenhower for the early design of 
satellites. In 1962, I established the U.S. Weather Satellite Service, 
served as its first director, and received a Gold Medal award from the 
Department of Commerce for this contribution.
    Early in my career, I devised instruments to measure atmospheric 
parameters from satellites. In 1971, I proposed that human production 
of the greenhouse gas methane, through cattle raising and rice growing, 
could affect the climate system. This was also the first publication to 
discuss an anthropogenic influence on stratospheric ozone. In the late 
1980s, I served as Chief Scientist of the Department of Transportation 
and also provided expert advice to the White House on climate issues.
    Today, by presenting evidence from published peer-reviewed work, I 
will try to rectify some erroneous claims advanced at the May 17 NACC 
hearing.
1. There Is No Appreciable Climate Warming
    Contrary to the conventional wisdom and the predictions of computer 
models, the Earth's climate has not warmed appreciably in the past two 
decades, and probably not since about 1940. The evidence is abundant.
    a) Satellite data show no appreciable warming of the global 
atmosphere since 1979. In fact, if one ignores the unusual El Nino year 
of 1998, one sees a cooling trend.
    b) Radiosonde data from balloons released regularly around the 
world confirm the satellite data in every respect. This fact has been 
confirmed in a recent report of the National Research Council/National 
Academy of Sciences.\1\
---------------------------------------------------------------------------
    \1\ National Research Council. ``Reconciling Temperature Trends.'' 
National Academy Press, Washington, DC. January 2000.
---------------------------------------------------------------------------
    c) The well-controlled and reliable thermometer record of surface 
temperatures for the continental United States shows no appreciable 
warming since about 1940. The same is true for Western Europe. These 
results are in sharp contrast to the GLOBAL instrumental surface 
record, which shows substantial warming, mainly in NW Siberia and 
subpolar Alaska and Canada.
    d) But tree-ring records for Siberia and Alaska and published ice-
core records that I have examined show NO warming since 1940. In fact, 
many show a cooling trend.
    Conclusion: The post-1980 global warming trend from surface 
thermometers is not credible. The absence of such warming would do away 
with the widely touted ``hockey stick'' graph (with its ``unusual'' 
temperature rise in the past 100 years); it was shown here on May 17 as 
purported proof that the 20th century is the warmest in 1000 years.
2. Regional Changes in Temperature, Precipitation, and Soil Moisture?
    The absence of a current global warming trend should serve to 
discredit any predictions from current climate models, including the 
extreme warming from the two models (Canadian and British) selected for 
the NACC.
    Furthermore, the two NACC models give conflicting predictions, most 
often for precipitation and soil moisture.<SUP>2,3</SUP> For example, 
the Dakotas lose 85% of their current average rainfall by 2100 in one 
model, while the other shows a 75% gain. Half of the 18 regions studied 
show such opposite results; several others show huge differences.
---------------------------------------------------------------------------
    \2\ R. Kerr. ``Dueling Models: Future U.S. Climate Uncertain.'' 
Science 288, 2113, 2000.
    \3\ P.H. Stone. ``Forecast Cloudy: The Limits of Global Climate 
Models.'' Technology Review (MIT), Feb/March 1992. pp. 32-40.
---------------------------------------------------------------------------
    The soil moisture predictions also differ. The Canadian model shows 
a drier Eastern U.S. in summer, the UK Hadley model a wetter one.
    Conclusion: We must conclude that regional forecasts from climate 
models are even less reliable than those for the global average. Since 
the NACC scenarios are based on such forecasts, the NACC projections 
are not credible.
3. Sea Level Rise: Controlled by Nature not Humans
    The most widely feared and also most misunderstood consequence of a 
hypothetical greenhouse warming is an accelerated rise in sea levels. 
But several facts contradict this conventional view:
    a) Global average sea level has risen about 400 feet (120 meters) 
in the past 15,000 years, as a result of the end of the Ice Age. The 
initial rapid rise of about 200 cm (80 inches) per century gradually 
changed to a slower rise of 15-20 cm (6-8 in)/cy about 7500 years ago, 
once the large ice masses covering North America and North Europe had 
melted away. But the slow melting of the West Antarctic Ice Sheet 
continued and will continue, barring another ice age, until it has 
melted away in about 6000 years.
    b) This means that the world is stuck with a sea level rise of 
about 18 cm (7 in)/yr, just what was observed during the past century. 
And there is nothing we can do about it, any more than we can stop the 
ocean tides.
    c) Careful analysis shows that the warming of the early 1900s 
actually slowed this ongoing SL rise,\4\ likely because of increased 
ice accumulation in the Antarctic.
---------------------------------------------------------------------------
    \4\ S.F. Singer. Hot Talk, Cold Science: Global Warming's 
Unfinished Debate. (The Independent Institute, Oakland, CA. (second 
edition, p. 18)).
---------------------------------------------------------------------------
    The bottom line: Currently available scientific evidence does not 
support any of the results of the NACC, which should therefore be 
viewed merely as a ``what if'' exercise, similar to the one conducted 
by the Office of Technology Assessment in 1993.\5\ Such exercises 
deserve only a modest amount of effort and money; one should not 
shortchange the serious research required for atmospheric and ocean 
observations, and for developing better climate models.
---------------------------------------------------------------------------
    \5\ Office of Technology Assessment. ``Preparing for an Uncertain 
Climate.'' Govt. Printing Office, Washington, DC. 1993.
---------------------------------------------------------------------------
    The NACC should definitely NOT be used to justify irrational and 
unscientific energy and environmental policies, including the 
economically damaging Kyoto Protocol. These policy recommendations are 
especially appropriate during the coming presidential campaigns and 
debates. I respectfully request that an expanded exposition \6\ be made 
part of my written record. [The Executive Summary is in the appendix, 
the whole document can be found at: //www hoover.stanford.edu/
publications/epp/102/102complete.pdf ]
---------------------------------------------------------------------------
    \6\ S.F. Singer. ``Climate Policy--From Rio to Kyoto: A Political 
Issue for 2000--and Beyond.'' Hoover Institution Essay in Public Policy 
No. 102. Stanford, CA, 2000.

    The Chairman. Thank you, Dr. Singer. In other words, you 
reject the findings of the Assessment practically in its 
entirety.
    Dr. Singer. I think these are interesting exercises, what-
if exercises, but I do not think they should be taken 
seriously.
    The Chairman. Dr. Schmitt, in the climate change you have 
noted in your findings, what is the impact on the ecology of 
the oceans, such as the effect on reef life, et cetera?
    Dr. Schmitt. Well, I am hardly an expert, but there are 
very significant impacts on fisheries. I know the cod fishery 
in New England has changed a lot. It is difficult to sort out 
whether it is due to overfishing or just changes in the North 
Atlantic Oscillation, because the water off Labrador is so much 
colder now than it was 10, 15 years ago.
    In other areas warming in tropical areas has a great impact 
on the life of corals. There is a phenomenon called coral 
bleaching, which basically kills a coral reef, and I believe 
that occurs if the water gets too warm. In other areas the 
stocks of salmon have been correlated with these climate 
phenomenon such as the North Atlantic Oscillation and the 
Pacific Decadal Oscillation.
    These phenomena, with their long time scales--they are 5, 
10, 15 year cycles--hold out the hope of predictability because 
the ocean has this long memory of the heat content. It has 
enormous heat content. It has 99.9 percent of the heat content 
of the climate system, and we need to be doing a much better 
job on monitoring that heat content.
    The Chairman. Mr. Karl, do you have a response to Dr. 
Singer's views?
    Mr. Karl. Yes. I have--I do not know where to begin, to be 
quite honest.
    Dr. Singer. Just start anywhere.
    Mr. Karl. I guess I would first point out that what we did 
in the assessment was draw on the published referenced 
literature. In fact, I think if you look at the references in 
the assessment there is--probably over 95 percent are from 
papers that have been peer-reviewed. The other 5 percent are 
reports that often were used because we needed to obtain the 
data from those reports.
    What I would just want to point out is that the position of 
Dr. Singer, although I very much respect his opinions, is quite 
at odds with the scientific published literature. I would just 
point out a few egregious examples of what I have heard.
    50 percent of the rise, or more than half of the rise in 
sea level is due to the expansion of ocean waters. As 
temperatures increase, the ocean density increases, and it has 
nothing to do with the melting of ice glaciers.
    The other aspects that I heard which I would completely 
disagree with, and that is the warming in the U.S. record. It 
is very clear, in fact, especially in the last decade or two, 
the U.S. was lagging behind global temperature increases up 
till the early 1980's, and since the mid-1980's, and 
particularly during the 1990's, the U.S. has virtually captured 
the rest of the globe.
    That is not to be unexpected. In fact, if you look at one 
area in the country, the Southeast part of the U.S., it is 
where we have not seen much of an increase in temperature. In 
fact, there have been very small changes in temperature, but 
again if you look at the 1990's in the Southeast, we are almost 
now as warm as we were back in the 1930's.
    And again, I might point out that in the Arctic we have had 
record low ice extents in the Arctic. In fact, if you look at 
the latest IPCC report that is up for review, it is documented 
that we also see reduced snow cover extending across the 
northern hemisphere.
    So it is not just the temperature records that we use to 
deduce the fact that the globe is warming. There are many, many 
other ancillary pieces of information that are used as well.
    So those are just a few of the things I would like to point 
out.
    The Chairman. Dr. Janetos, can you comment on the Science 
Magazine article which claims that the two models used in the 
report, the Hadley Center and the Canadian, are not intended, 
or capable of predicting future impacts of climate change on a 
regional basis?
    Dr. Janetos. Mr. Chairman, in the assessment we tried to be 
very careful to say what we have not done is try to predict 
exactly what the future will be like. Each of these models, 
each of these general circulation models was selected after a 
careful review of the criteria that we set a priori in order to 
understand the potential consequences.
    They had to have saved the right data, they had to have 
used an emissions scenario that was already well understood, 
and they had to be documented in the scientific review 
literature.
    What we have tried to do is essentially ask the question, 
what if the models are correct? Since we cannot distinguish 
between them on scientific bases, we need to be able to 
understand the implications of the different plausible futures 
that they hold for the U.S.
    The Chairman. Thank you. We will be submitting written 
questions that we hope you will be able to respond to. I 
apologize for the short-circuiting of this hearing. We will be 
asking the second panel to come back. We thank you for taking 
your time to come before the Committee.
    You have added a lot to this very important discussion, and 
I want everyone to be very aware that we will continue to 
pursue this with further hearings. I think that it is an issue 
that is extremely important for us to seriously consider, and I 
thank you for being here. I thank you for your continued 
efforts, and I hope I have the opportunity to personally visit 
with all the members of the panel as we explore this very 
complex and difficult situation. I thank you.
    Unfortunately, this hearing is adjourned.
    [Whereupon, at 10:10 a.m., the Committee adjourned.]


                            A P P E N D I X

      Response to Written Questions Submitted by Hon. John McCain 
                           to Thomas R. Karl
Question 1. Can you explain the process used in the report to address 
the differences between the results of the two computer models and how 
this process is used to identify new research areas?
    Answer. A lexicon was developed to communicate scientific 
uncertainty related to the scenarios from the two climate models used 
in the National Assessment as well as other models, data, information, 
and state of knowledge. This lexicon conveyed areas of uncertainty by 
linking words with probabilities. For example, if the National 
Assessment Synthesis Team (NAST) assessed the about even odds for an 
event the word `possible' was used. On the other hand, if the NAST was 
fairly certain about an event, then words like ``very likely'' or 
``very probable'' were used to indicate that there was more than 90% 
chance of occurrence. Where both models agreed, projections were seen 
as more certain. In cases where model results differed, both possible 
future scenarios were examined and results were characterized as less 
certain. Model results were not merged.
    Whenever the NAST encountered instances where there was 
considerable uncertainty about the outcome these areas were then 
identified in a `Research Needs' section of the report. In our Research 
Needs section we recommend a number of measures that are required to 
improve our confidence in modeling future climates.

Question 2. If the report explicitly does not ``merge'' the results of 
models that disagree, can this assessment be considered a fair analysis 
of climate change? Furthermore, when the two models diverged, where 
these results downplayed in the report versus when they concurred?
    Answer. In response to the first question, it is difficult to 
understand why the assessment would not be considered fair if the two 
primary models were not merged. As indicated above, the NAST did not 
merge the scenarios from the models, but rather the NAST reflected the 
uncertainty related to several different possible outcomes and 
expressed this lack of confidence through use of the lexicon.
    In response to the second question, the answer is no. Again, the 
NAST painstakingly used the lexicon to express its confidence in any 
projected changes for the 21st Century. Projected scenarios from all 
relevant models were discussed. This included both of the two primary 
models as well as the secondary models used in the Assessment.

Question 3. Dr. Schmitt has raised several issues concerning the impact 
of the oceans on the climate modeling results. How sensitive are the 
climate change impacts on the U.S. to changes within the ocean water 
temperatures?
    Answer. Dr. Schmitt's remarks refers to improving climate forecasts 
from climate models that are dependent upon initial conditions. These 
deterministic climate model forecasts require information about the 
current state of the oceans. Clearly, it is very important to have 
comprehensive high-quality real-time ocean observations available to 
properly initialize these models.
    The Global Climate Models used in the National Assessment do not 
require real-time initial conditions. They are self-contained models 
and generate their own ocean climate. Changes in ocean temperatures can 
have a large impact on the climate of the U.S. An obvious example 
relates to the changes of ocean temperatures in the tropical Pacific 
related to the El Nino southern oscillation and its effect on the 
temperature and precipitation in the U.S. Another example relates to 
hurricane formation. Water temperatures significantly less than 80 
degrees Fahrenheit do not provide enough energy to the atmosphere to 
spawn powerful hurricanes. And as a result, hurricane formation is 
highly seasonal dependent.

Question 4. In the past few years, the U.S. experienced some 
distinctive weather patterns, namely El Nino and la nina. Can you 
discuss how these and other warm ocean water related weather patterns 
factors into your modeling efforts?
    Answer. First, it is important to understand that El Nino and la 
nina are the opposite phases of an oscillation that is atmospheric and 
oceanic based. As such, la nina reflects cold ocean waters in the 
tropical Pacific while El Nino reflects the opposite conditions, warm 
waters. Present-day Global Circulation Models are only now beginning to 
show success in simulating important ocean-atmosphere oscillations such 
as the El Nino/Southern Oscillation. Neither of the models used in the 
National Assessment has a fully satisfactory representation of the El 
Nino/la nina oscillation, and it is likely that this has lead to some 
of the differences between model projections. The Global Climate Model 
that has been most successful in reproducing the El Nino/la nina 
events, primarily because of its higher resolution, is the Max Planck 
Model from Germany. Unfortunately, based on the NAST's selection 
criteria, we could not use this model as a primary model, but the NAST 
was able to point out that this model projects a major increase in the 
intensity of both El Nino and la nina events as the globe warms. This 
could be very important, and in our Research Needs section of the 
National Assessment the NAST points out the importance of more research 
related to climate model inter-comparisons, representation of important 
ocean processes, and analysis of possible influence of climate change 
on existing patterns of climate variability.

Question 5. Do you anticipate that any of the ongoing university 
regional studies will contradict the findings of the current draft 
report?
    Answer. I do not anticipate that the any of the ongoing studies 
will contradict the current National Assessment Draft Report, but I 
would be surprised if they did not add additional insight into 
important issues and uncertainties. In assessing such a broad range of 
science, economics, and sociology, it was very clear to us that new 
understanding and insights were occurring continuously. Most often 
however, these insights made incremental additions to our 
understanding. A good example of this are the incremental advances in 
our understanding about global change as reflected in the series of 
Inter-governmental Panel on Climate Change Assessments completed during 
the 1990s. It is rare in science, that a discovery or theory completely 
displaces the old paradigm. We acknowledge that such things can occur 
however, such as the discovery of the ``Ozone Hole'' or Einstein's 
Theory of Relativity.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John McCain to 
                         Dr. Anthony C. Janetos
Question 1. Some critics of this report charge that the Administration 
has ignored scientific and analytical procedures, and instead produced 
an advocacy-driven document. Given that most scientific studies are not 
open to the public, do you believe that ``value'' was added to the 
process by involving the public in this manner?
    Answer. The public has been involved in two ways throughout the 
assessment process. First, during the workshop phase of the process, in 
which more than twenty workshops were held around the country, broad 
public participation was sought. The role of the workshop participants 
was primarily to identify environmental issues of concern to people in 
the different regions of the U.S. This input was then used to help 
decide which issues of importance within each region would be followed 
up in scientific studies.
    The second way in which the public was involved was opening the 
Synthesis reports up to a public comment period, at the specific 
request of the Congress. We received many comments from people who 
otherwise might not have had the opportunity to read such a report at 
this stage in its development. Some of these comments have been quite 
insightful and helped us improve the document as a method of 
communication with a broad readership.
    It is correct that most national scientific processes have not been 
so open to soliciting input from the public. I argue that our process 
has been enhanced by the public participation that we received, without 
resulting in an advocacy-driven document. We have focused on issues 
that people perceived to be important to them, and not just on issues 
of interest to the scientific community. At the same time, we were able 
to bring up-to-date scientific knowledge and methods to bear on the 
issues that had been identified. Objective scientific and analytical 
procedures and methods have been used throughout. Our objectivity has 
been ensured by extensive peer review.

Would you also discuss the level of participation from the private 
sector?
    Answer. The private sector has been involved in several different 
ways. Our oversight panel is broadly representative of several 
different sectors, including academia, the for-profit private sector, 
and non-governmental organizations (NGO's). The National Assessment 
Synthesis Team and other contributors to the national reports include 
individuals from all these sectors as well, plus experts from 
government research laboratories. Many individuals in the private 
sector have reviewed all or part of the reports, and have offered their 
comments to us. Finally, many of the regional workshops included 
participants from the private sector, who were important contributors 
to the process of identifying issues for scientific analysis.

Question 2. Can you describe the peer review process that the 
assessment team incorporated into its findings?
    Answer. The peer review process had several steps. First was a 
round of technical peer review on the initial drafts of the national 
reports, which began in November of 1999, and continued into January of 
this year. We received more than 300 comments from individuals who 
identified themselves as technical experts in the many different 
aspects of the report. This technical peer review included experts in 
the government agencies, as well as academia, the private sector, and 
NGO's. The second step was submitting the entire report to a list of 
about 20 experts identified by our oversight panel, who were charged 
with evaluating the entire structure of the report, its responsiveness 
to its original intent, and the strength of the findings and 
conclusions. Throughout, we have had the benefit of comments from our 
oversight panel.
    The National Assessment Synthesis Team has considered every written 
comment that it has received. We have responded to comments in writing, 
documenting either how the comment has been taken into account, or why 
we have decided not to do so. These responses to comments have also 
been shared with our oversight panel.

Question 3. How did your ``bottom up'' approach to the assessment 
report impact the findings or scope of your work?
    Answer. I believe that the approach of identifying issues through 
involvement of the public in the series of workshops did affect the 
scope of the work. Specifically, it enabled us to focus on the issues 
viewed as most important by the participants of the workshops. However, 
the analysis of those issues was done by experts, so that the actual 
findings themselves are the result of objective analysis.

Question 4. Did the oversight panel for the National Assessment 
Synthesis Team offer any cautious or contradictory statements 
throughout the reporting process?
    Answer. The oversight panel has been cautious throughout, and has 
been especially helpful to us in ensuring that we have described 
accurately the scientific basis for our findings, and been open about 
the degree of uncertainty that remains. They have not provided 
contradictory statements.
                                 ______
                                 
      Response to Written Questions Submitted by Hon. John McCain 
                       to Dr. Raymond W. Schmitt
Question 1. Your written statement mentions that the ocean is the long 
term memory of the climate system. Would you discuss what methods are 
available to retrieve that long-term memory?
    Answer. Most of the heat energy reaching Earth is absorbed into the 
upper ocean at low to middle latitudes. A significant fraction of this 
is used to heat and moisten the atmosphere on a daily basis, causing 
the winds and rain we experience as weather. But over the course of the 
seasons, large amounts of heat are stored within the ocean during 
spring and summer for release in the winter. This is the basic 
moderating influence of the oceans on climate; the vast heat capacity 
of the oceans prevents the winter from becoming too cold, and the 
summer from becoming too hot, especially in areas near the coast. But 
we have also found that ocean currents are capable of moving tremendous 
quantities of heat around the planet. This has an essential role in the 
climate system, fully half of the transport of heat from equator to 
pole is accomplished by the slow-moving, high heat-capacity ocean, with 
the other half of the heat transport carried by the fast-moving, low 
heat-capacity atmosphere. The atmosphere cycles its water vapor and 
heat within two weeks, so it has only a short-term memory of past 
conditions. However, the ocean's heat-content is so large its memory 
time is decades to centuries, when the deep ocean is considered.
    The way to retrieve and interpret the long term climate memory of 
the oceans is to measure the temperature at depth. Satellites provide 
an estimate of the temperature of the ocean in a thin surface layer but 
tell us nothing about the deep-reaching temperature signals necessary 
to help predict the climate a season or even a decade ahead. New 
technology of profiling floats (the ARGO program), new profiling 
moorings that measure temperature and salinity and maintenance of 
traditional ship-based observations will all help to acquire data on 
the deep temperature and salinity of the ocean. We will never decipher 
the mysteries of the climate system without measuring the dominant 
portion of its heat content that resides in the ocean.

Question 2. Would you briefly discuss the importance of ocean salinity 
(or salt content) to climate studies?
    Answer. Salinity variations have nearly as much influence on 
seawater density as temperature changes. This means that in the high 
latitude ocean salinity plays a very important role in determining 
whether the surface waters will be dense enough to sink and become deep 
water. Salinity can be decreased there by rain fall, river runoff and 
ice melt. If deep water ceases to form then the ``thermohaline'' 
circulation is disrupted and the warming influence of the North 
Atlantic on American and European weather is much reduced. Increased 
rainfall in high latitudes and subsequent collapse of the thermohaline 
circulation is a prediction of global warming models, with dramatic 
consequences for climate. However, the ocean models and measurements 
are presently inadequate to say whether thermohaline collapse is 
probable or even possible with global warming. In the tropics, high 
rainfall rates can cause low salinity water to collect at the ocean 
surface and modify the ocean's transfer of solar heat to the 
atmosphere. Salinity variations in the ocean reflect the workings of 
the greater part of the global water cycle; a mere 1% of the rainfall 
on the Atlantic ocean would double the discharge of the Mississippi 
River. Yet salinity is a very poorly monitored variable; for many areas 
of the ocean, there has never been a salinity measurement. Thus, it is 
very important that we begin to make much greater use of new technology 
such as ARGO floats, moored and drifting buoys and ships to better 
define the patterns of salinity variation in the ocean. Only then will 
we achieve an adequate understanding of the global water cycle and its 
variations which are so important to society.

Question 3. You mentioned that because of computer limitations, many 
models must treat the ocean as a very viscous fluid, more like lava or 
concrete than water. What are the implications of this assumption?
    Answer. The models that are run for climate predictions cannot 
resolve or represent the smaller scales of variability in the ocean. 
This means that the many eddies and fronts we find in the real ocean 
(100 km in size and smaller) are not in the models. This introduces a 
number of defects in the models even for the large scales which are 
well resolved. For instance, some currents are driven by eddies, and 
without eddies such currents are not found in the models. Also, the 
ocean's interior mixing processes are known to be caused by internal 
waves, yet there are no internal waves in the models. Mixing controls 
the patterns of the deep currents, which are notoriously wrong in the 
models. The problem gets worse for climate projections of decades or 
centuries, with many ocean phenomena missing or seriously 
misrepresented. Without an accurate portrayal of ocean dynamics, 
prediction of future climate states is fundamentally impossible.

Question 4. Your written testimony states that it is unlikely that we 
will have the necessary computer power over the next 160 years, even 
with an increased order of magnitude every 6 years, to simulate the 
smallest ocean mixing processes. What are our alternatives to gain a 
better understanding of these processes?
    Answer. Study the real ocean. We can develop a better understanding 
only through dedicated ``process'' studies focussed on these different 
phenomena. This allows the development of ``parameterizations'' of the 
small scale processes that can be used in the numerical models. The 
United States had a significant research effort on small-scale ocean 
processes during the cold war through support of the Office of Naval 
Research, but funds from that source are now much diminished. There is 
a great need for a revitalization of such work in order to bring the 
ocean climate models toward some semblance of reality.
                                 ______
                                 
      Response to Written Questions Submitted by Hon. John McCain 
                         to Dr. S. Fred Singer
Question 1. The report states that by using the two selected computer 
models, a plausible range of future actions are captured, with one 
model being near the lower end and the other near the upper end of 
projected temperature changes over the U.S. Do you agree with this 
statement?
    Answer. The National Assessment Report chose two climate models 
(out of perhaps two dozen) to provide scenarios for the 21st century. 
The selection criteria are not readily apparent. One model came from 
the Canadian Climate Center; it predicts extreme temperature rises over 
the U.S. (of 11+F by 2100). The other model chosen was produced by the 
Hadley Center in Britain; it predicts less extreme temperatures.
    The main point, however, is that BOTH models are already too high 
and therefore proven wrong by the temperatures observed in recent 
years. As shown in my testimony, there has been no appreciable warming 
over the U.S. since about 1935, according to the analysis by Dr. James 
Hansen of NASA-GISS. Notwithstanding the oral response by Tom Karl, 
virtually the same is true for the analysis published by NOAA-NCDC.
    To verify this, it is only necessary to view the disparity between 
the observed temperatures (see my written testimony) and the calculated 
temperatures (see written testimony of Karl/Melillo/Janetos).

Question 2. What are your thoughts as to why regional forecasts from 
the climate models disagree so strongly in some areas and not as much 
in others?
    Answer. At the present state-of-the-art of climate models, regional 
forecasts are even worse than those for global averages. No reliance 
whatever should be placed on them. The strong disagreements between the 
model predictions themselves provide adequate confirmation for my 
statement.

Question 3. Your written statement mentions that a careful analysis 
shows that the warming of the early 1990's actually slows ongoing sea 
level rise. Can you explain this finding?
    Answer. Sea levels have been rising for about 15,000 years, since 
the peak of the last ice age. The total rise has been about 400 feet. 
Sea levels are continuing to rise at a rate of about 7 inches per 
century, and will continue at about that rate for several millennia 
more as slow melting continues in the Antarctic.
    As global temperatures fluctuate (no matter whether from natural 
causes or possible human causes), the ongoing sea level rise may be 
expected to show slight modulations; it may slow down for some decades 
or it may accelerate. It all depends on whether a warming of the oceans 
produces a greater or lesser effect than an accumulation of ice in the 
Antarctic from increased ocean evaporation and subsequent 
precipitation. (These two effects on sea level oppose and nearly cancel 
each other.)
    When we investigated what happened during the major warming between 
1920 and 1940, we found empirically that the rise in sea level slowed 
down. We therefore expect that any future warming, unless extreme and 
sustained over many centuries, will likewise reduce the rate of sea 
level rise rather than accelerate it. The existing fears about rising 
seas from greenhouse warming have no scientific foundation whatsoever. 
They are based on hype rather than observed facts.

Question 4. Do you accept the claim that the 20th century was the 
warmest of the past 1000 years?
    Answer. The claim that the present century is the warmest of the 
past 1000 years relies on the ``hockey-stick'' temperature graph (Mann, 
Bradley, and Hughes, Geophysical Research Letters 1999). It is derived 
from various proxy data rather than thermometer records; yet it has 
been widely cited. It forms the cornerstone of the claimed 
``discernible human influence'' in the Summary for Policymakers of the 
IPCC-Third Assessment Report.
    The graph is actually a composite of two records: (i) temperatures 
from ``proxy'' data (tree rings, etc.) going back to 1000AD; and (ii) a 
superimposed global instrumental (thermometer) record of the past 
century.
    Close examination reveals that the proxy record stops in 1980 and 
therefore does not independently support the post-1980 temperature 
increase suggested by the thermometer data. Thus there is no evidence 
for a substantial warming since 1980 (or even since 1940). There is no 
evidence for the claim that the present century is the warmest of the 
past 1000 years. And there is no evidence to back the claim of a 
``discernible human influence'' on global climate.
                                 ______
                                 
   Prepared Statement of Hon. Larry E. Craig, U.S. Senator from Idaho
    Mr. Chairman, thank you for inviting me to testify at this very 
important hearing. On June 16, 2000, I spoke on the Senate Floor about 
the Administration's recently released draft National Assessment 
Synthesis Report. I ask that a copy of that Statement be included in 
the record of this hearing.*
---------------------------------------------------------------------------
    * The information referred to was not available at the time this 
hearing went to press.
---------------------------------------------------------------------------
    Mr. Chairman, the potential of global climate change is one of the 
most important environmental issues of this new century. The stakes are 
high. Worst-case scenarios involving rising temperatures and sea levels 
scare many people. On the other hand, premature government action to 
cut back energy use to levels lower than those in the growth-oriented 
nineties could cool the economy faster than it cools the climate.
    What is required at this time, Mr. Chairman, is steady and 
thoughtful leadership. Responsible government includes environmental 
stewardship. However, the ultimate obligation of government is to 
protect freedom. By freedom I mean the opportunity to achieve one's 
true potential as an individual, a community, or a nation: the freedom 
to grow!
    Freedom spawns discovery and innovation. Discovery and innovation 
solve problems and create opportunities. This is the true spirit of 
America.
    Mr. Chairman, today you will have the co-chairs of the National 
Assessment before you. These are accomplished men with impressive 
scientific backgrounds. The Committee will have the opportunity to 
question them on a document that I believe is long on fear and short on 
conclusive science.
    Let me lay-out some of the reasons why I am so concerned about this 
document.
    The National Assessment process was authorized under the Global 
Change Research Act of 1990 but did not officially begin until January, 
1998--one month after the Kyoto Protocol. The final report was expected 
in January, 2000, but was delayed.
    Last year, in the Fiscal Year 2000 appropriations, Congress 
directed that all research used in the National Assessment must be 
subjected to peer review and made available to the public prior to use 
in the Assessment, and the Assessment must be made available to the 
public through the Federal Register for a 60 day public comment period. 
This was not challenged by the Administration.
    The Administration released a ``draft'' summary report on June 12th 
of this year by posting it on a website and publishing a notice in the 
Federal Register that it was available for comment until August 11th. 
This action is clearly at odds with Congressional intent. The 
underlying regional (geographic) and sector (health, agriculture, 
forests, water, coastal) work that was to have served as the basis for 
the summary report has not been completed or made available for review.
    In a June 30th letter to Congressman James Sensenbrenner, Chairman 
of the House Committee on Science, Neal Lane, who testified before this 
Committee on May 17th Mr. Chairman, stretched credibility in defending 
this action. Although taxpayer funds were provided to support the work, 
he claimed the underlying reports were not ``federal'' reports and 
therefore not covered by the earlier Congressional guidance. The 
underlying reports are to be completed over the next year or so and 
published by the respective teams working on them.
    Mr. Chairman, a question that begs an answer is: Why the rush to 
release the National Assessment? The premature release of this document 
allows for more polarizing advocacy. Although supposedly a ``draft'' 
report published for technical review and comment, it was trumpeted by 
President Clinton on the day of its release and served as a basis for 
repeating tired claims:
     ``It suggests that changes in climate could mean more extreme 
weather, more floods, more droughts, disrupted water supplies, loss of 
species, dangerously rising sea levels.''
    It's easy to miss (or ignore) the qualifications to these 
predictions and simply report that the Assessment forecasts dire 
changes in climate in the future. For example, a page one story in The 
New York Times on June 12th carried the headline: ``Report Forecasts 
Warming's Effects--Significant Climate Changes Predicted for the 
Country.''
    In Texas, a July 4th story by the environmental reporter at the 
Dallas Morning News reported on action by five environmental groups 
asking Governor Bush--``to launch a Texas assault on global warming, 
which scientists say could heat up North Texas in the next century.'' 
The story went on to discuss the draft National Assessment including 
the comment--``Two computer simulations of the future of Texas climate 
show sharp rises in the July heat index, with the worst impact in North 
Texas.''
    Not everyone has been misled. The Wall Street Journal published an 
article entitled: ``U.S. Study on Global Warming May Overplay Dire 
Side'' on May 26th, in anticipation of the impending release. A similar 
story ran in The Detroit News on May 28th. Numerous Op-eds and Letters 
to the Editor have also run.
    However, Mr. Chairman, the early release of this document raises 
more intriguing political questions than helpful probative scientific 
ones. For example, it puts the Assessment on a timetable for inclusion 
in the UN's Intergovernmental Panel on Climate Change's ``Third 
Assessment Report'' on climate change which is due to be finalized next 
year. In fact, Mr. Chairman, I have been informed by staff that drafts 
are already circulating for comment and these drafts include references 
to the U.S. National Assessment.
    It is becoming clear that the June 12th release of the Assessment 
is serving as support for campaign claims by Al Gore to support his 
views on climate and energy use. Indeed, his release on environment and 
energy policy occurred just two weeks later on June 26th.
    Mr. Chairman, the Administration could have avoided seeding these 
concerns if it had followed the common sense approach requested by 
Congress and taken the time to get it right: 
    First, complete the underlying regional and sector work, peer 
review the science used as its basis, and make the results available 
for public comment;
    Second, write the synthesis overview report based on this work, not 
independently, peer review the results and make a complete draft easily 
available for all interested citizens to review with enough time to 
gather complete comments and expose them to the public.
    In addition, Mr. Chairman, the independent National Research 
Council should have a strong role in the drafting process, not just 
White House allies as implied in some critiques.
    Lastly, but importantly, one must question the use of foreign 
computer models in this study. Was this in our best interest? The 
National Assessment used a Canadian and a British Large Scale General 
Circulation Model (GCM's) to make climate change predictions at a 
regional level. According to a June 23rd Science Magazine article 
entitled ``Dueling Models: Future U.S. Climate Uncertain,'' there is a 
clear consensus of opinion in the scientific community that these 
models are not intended, or capable of, predicting future impacts of 
climate change on a regional basis. Even the EPA web site makes this 
point.
    The mere use of the foreign computer models in the National 
Assessment once again, begs an answer to an obvious question: What 
needs to be done to improve U.S. modeling capability? Other questions 
that need answers are: How well has the current Administration been 
spending our money in the climate arena? Do we have our scientific 
priorities in order?
    These, along with many other questions, I hope will be asked of 
those testifying before you and the Committee this morning. We must 
pursue a more consensus building approach to the climate change issue. 
Senator Frank Murkowski and I have introduced legislation that we 
believe provides a framework for national consensus--making continued 
stalemate on this issue unnecessary and intolerable. We have the 
vehicle to move forward. We should do so expeditiously, and with the 
constructive support of the Administration.
    Thank you, Mr. Chairman.
                                 ______
                                 
Prepared Statement of Hon. Frank H. Murkowski, U.S. Senator from Alaska

    I want to thank Chairman McCain and the members of the Committee 
for holding this hearing today to review the recent National Assessment 
Report on climate change and its impacts on the United States.
    The report estimates effects of climate change on various regions 
of the country, and various sectors of our economy, such as agriculture 
and water resources. At the heart of this report are ``potential 
scenarios'' of climate change over the next 100 years predicted by two 
climate models--one from Canada, and the other from the United Kingdom. 
These two climate models were ``state of the art'' three years ago when 
work began on this report, but it's important to note that significant 
advances in our ability to model climate on regional scales have been 
made since then.
    These ``scenarios'' of climate change were then used to drive other 
models for vegetation, river flow, and agriculture--each of these 
models have their own set of assumptions and limitations reflecting 
incomplete understanding of the Earth system and its component parts.
    The end result of the three-year study is a 600 page report that 
paints a rather grim picture of 21st Century climate. Now the 
environmentalists and others in favor of the Kyoto Protocol are 
shouting from the rooftops--saying that these ``potential scenarios'' 
mean that we should go forward with drastic and costly measures to 
limit greenhouse gases.
    As the Committee considers the National Assessment Report today, I 
encourage you to look beyond the rhetoric to the science that underlies 
this assessment--we are only just now beginning to conduct the kind of 
scientific research that will allow us to determine impacts of climate 
change on the regional and local scales that are most relevant to our 
constituents.
    For example, a reasonable test of a climate model is whether or not 
it accurately simulates today's climate--the National Assessment's own 
science web site displays a chart that compares rain and snowfall 
predicted by the two climate models to actual measured precipitation 
(see attached Figure). The areas in blue and purple reflect areas where 
the model predicts more than TWICE as much rainfall as observed--if you 
live in an area with 10 inches of rain, the model would predict that 
you get 20 or more. Similarly, the areas in red reflect areas where the 
model predicts less than HALF as much rainfall as observed--if you 
actually get 10 inches of rain, the model would predict that you get 5 
or less.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Now, we know that the amount of rain and snow falling within a 
river basin determines river flow--which determines:

  <bullet> the amount of water for irrigation of crops

  <bullet> the health of fish species

  <bullet> the generation of hydroelectric power

  <bullet> and the water available for human use

    So depending on what the climate models say, you can imagine very 
different impacts--and if the models are off by 50 or 100% in either 
direction, so too could be the estimates of impacts from climate change 
on these sensitive areas of the environment and our economy. This is 
just one example of the need for continued scientific research to 
understand the entire Earth system and how it responds to changes in 
atmospheric trace gas concentrations.
    Nonetheless, the National Assessment has been a very useful 
exercise: it shows the difficulty of estimating regional impacts of 
climate change; it highlights the need for additional scientific 
research (namely improved climate models and observing systems); and it 
reminds us of the potential risk of climate change--a risk that we 
should responsibly address through the construction of a national 
energy strategy that includes consideration of climate change and its 
potential risks.
    The Committee on Energy and Natural Resources, which I chair, has 
held a number of hearings on climate change and its economic 
consequences for the United States--and the findings are not 
encouraging. If we heed the environmentalists' call and ratify the 
Kyoto Protocol, American consumers would see gasoline prices above 
$2.50 per gallon and watch their electricity bills increase by over 
85%, according to the Energy Information Administration. These 
projections have withstood scrutiny and have been confirmed by numerous 
other studies of Kyoto and its economic impacts.
    Furthermore, the Kyoto Protocol will not lead to stabilization of 
greenhouse gas concentrations in the atmosphere--the principal goal of 
the Framework Convention on Climate Change signed by the U.S. in 1992. 
Without developing country participation in the Protocol, greenhouse 
gas emissions would continue to rise as a result of industrialization 
and increased energy needs of China and India--nearly one-third of the 
world's population. No matter what kinds of cuts in emissions we make, 
Kyoto will not result in any meaningful difference in the climate.
    As the Senate stated when it passed S. Res. 98, the ``Byrd-Hagel 
Resolution'' regarding climate change, a climate treaty must include 
meaningful developing country participation and must not come at 
economic cost to the United States. Neither of these conditions have 
been met in the current Kyoto Protocol, and it is clear to me that we 
need an alternative approach to addressing the risk of climate change--
one that recognizes the global, long-term nature of the problem.
    To this end, I have sponsored, with Chairman McCain and 19 other 
Senators, the Energy and Climate Policy Act (S. 882) which provides a 
technology-based alternative to the Kyoto Protocol. Our bill:

  <bullet> Creates a new $2 billion effort over the next ten years to 
        cost share technology development with the private sector;

  <bullet> Creates an Office of Climate Change within the Department of 
        Energy to coordinate research and development activities across 
        a wide range of energy technologies; and

  <bullet> Promotes voluntary reductions by improving the government's 
        system of tracking voluntary emissions reductions.

    Senator Craig has also introduced a bill (S. 1776) that I have 
cosponsored which complements S. 882--it addresses some issues such as 
strengthening coordination between elements of the U.S. Global Change 
Research Program. We anticipate including elements of Senator Craig's 
bill in an amended version of S. 882 when we consider it later in the 
year. I welcome interest from members of the Committee if they wish to 
review our legislation and offer comments or amendments.
    In summary, I believe that we should take prudent steps to address 
the possible risks of climate change, but we should recognize the 
global, long-term nature of the problem and respond accordingly. A 
balanced portfolio of energy options, including expanded use of natural 
gas and continued reliance on emissions-free nuclear and hydro power, 
would produce fewer greenhouse gases than the Administration's current 
energy plan. We should expand existing emissions-free technology, 
including nuclear, hydropower, solar, wind and biomass, but we should 
also promote new technology to trap and store greenhouse gas emissions 
from the atmosphere and encourage voluntary actions to reduce 
greenhouse gases and use energy more efficiently. We should also invest 
in a new generation of energy technologies that can be deployed in 
developing countries, preventing greenhouse gas emissions before they 
occur.
    The risk of human-induced climate change is a risk we should 
responsibly address, and a balanced, technology-driven energy strategy 
offers us the means to do so. As we consider our future national energy 
strategy (which drives our greenhouse gas emissions), we now have an 
excellent opportunity to address our environmental concerns at the same 
time that we address our growing dependence on foreign oil.
    I thank Chairman McCain and the members of this Committee for their 
interest in these issues, and look forward to working with you on 
establishing a balanced energy portfolio that makes good sense for our 
economy, our environment, and our national security.
                                 ______
                                 
               Prepared Statement of The Annapolis Center
                       Global Climate Modeling: 
             Helping to Understand Strengths and Weaknesses

Introduction
    The public's and decision-makers' understanding of the strengths 
and weaknesses of computer modeling of global climate is essential to 
the formulation of long-term policies related to global climate change. 
In the hope of facilitating better understanding of the status of 
climate modeling, the Annapolis Center gathered a diverse group of 
experts for discussion of the status of climate modeling and to prepare 
this report.
    The majority of the group's views on this general subject were as 
follows:

  <bullet> There are a number of ``greenhouse'' gases in the earth's 
        atmosphere, including water, in the form of vapor, 
        CO<INF>2</INF>, and methane. (Water vapor is a much stronger 
        contributor to the natural [non-anthropogenic] greenhouse 
        effect than CO<INF>2</INF>.)

  <bullet> Atmospheric carbon dioxide (CO<INF>2</INF>) has been 
        increasing for more than 100 years, almost certainly in large 
        part because of human activity.

  <bullet> There are growing indications that global near-surface 
        temperatures have increased over the past century by about 1+F 
        (0.6+C). Temperatures in the lower five miles of the 
        atmosphere, the lower-to-mid troposphere, have increased only 
        slightly, if at all, in the past several decades of 
        instrumental monitoring.

  <bullet> Natural increases in atmospheric CO<INF>2</INF> in the 
        Earth's past have been well documented, however, the cause-and-
        effect relationships with past climate change are not clear.

  <bullet> The rate of increase of CO<INF>2</INF> in the atmosphere in 
        the past century is greater than any previously recorded 
        historic rate.

  <bullet> How much of the observed warming is caused by human 
        activities and by natural climate variations is uncertain.

Climate Modeling and Simulation
    How can we understand the earth's climate system and the possible 
consequences of increased concentrations of greenhouse-gases in the 
atmosphere? We can do some things in the laboratory, but because the 
earth's climate system is so large and incredibly complex, we can 
recreate only small pieces of it in the lab for extensive study. So 
scientists develop computer models based on the governing physical 
principles as expressed by mathematical equations that describe many of 
the processes that may affect climate. Such models act as simulation 
laboratories in which experiments can be performed that test various 
assumptions and combinations of events. These experiments not only can 
expand our knowledge, they can also develop insights into possible 
climate futures.
    Although there are a variety of increasingly complex climate 
models, only the ``general circulation model'' (GCM, sometimes also 
referred to as a global climate model) determines the horizontal 
(geographical) and vertical (atmospheric and oceanic) distributions of 
a group of climatic quantities, including (1) temperature, wind, water 
vapor, clouds and precipitation in the atmosphere; (2) soil moisture, 
soil temperature and evaporation on the land; and (3) temperature, 
currents, salinity and sea ice in the ocean. The related equations are 
so complex, however, that they can only be solved for specific 
geographical and vertical locations, and only over specific time 
intervals. For example, a typical GCM subdivides the atmosphere into 
thousands of three-dimensional volumes, each having linear dimensions 
of about 250 miles in the north-south and east-west directions, and a 
mile in the vertical direction. The task of making these boxes smaller 
is severely limited by the speed of even present-day supercomputers. 
For example, decreasing the horizontal size of a GCM from 250 to 25 
miles would increase the required computer running time by a thousand 
fold--from about 2 weeks to more than 30 years of run-time to compute 
the resulting change in the equilibrium climate of the model!
The Uses of Climate Models
    Until the advent of supercomputers, our attempts at climate 
modeling were rudimentary. That situation changed roughly 25 years ago. 
Much of the recent attention by the public and decision-makers on 
climate change has been due to measurements indicating that warming has 
been occurring near the Earth's surface over the last century and to 
relatively recent projections from GCMs.
    Climate varies naturally over both short and long time scales, 
sometimes rather dramatically over a few years or decades. This rapid 
variability was experienced in Europe during the Little Ice Age of 
1400-1850. To understand climate change, scientists must understand the 
detailed nature of the extremely complex climate system. While we have 
learned a great deal, there is still much we do not know. Climate 
models today can give us insights into what might happen under various 
assumed situations.
    Currently, there are about 30 GCMs being developed and/or used by 
research groups around the world. Many of these models are related, 
with the differences among the models lying in the natural processes 
they include and how they integrate and treat these processes within a 
specific model.
    As discussed above, computer models are necessary in the study of 
climate change because of the extraordinary complexity and number of 
the physical processes that are embodied in the climate system. Some of 
the factors that affect climate include:

  <bullet> the concentrations of gases and aerosols;

  <bullet> interactions between the atmosphere, the biosphere, and 
        oceans;

  <bullet> volcanic activity; and

  <bullet> interactions of components within the atmosphere and ocean 
        themselves.

    The growth of computing capacity has allowed scientists to 
integrate complex climate-system processes into single computational 
frameworks. These frameworks can be used to develop an increasingly 
more comprehensive, but still incomplete, overall picture of the global 
climate system.

The Roles of GCMs
    The general uses of GCMs are:
    First, the building and running of a model is a process by which 
theory and observations are mathematically evaluated, codified and 
integrated in a computer program. Models can thereby be used to 
identify needed refinements in theory and observation. Model building 
is a long process of back and forth comparisons between analytical 
description (``theory'') and field studies (``observational data''). 
These comparisons include end-to-end efforts to correlate observational 
findings with improvements in model representations.
    Second, climate models are used to identify and then assimilate 
observational measurements that are initially incomplete. These 
measurements can then be used to derive more consistent, spatially 
specific estimates of meteorological quantities. Such model-assimilated 
data have proven to be of great utility to the research community in 
better understanding the observed and potential variability of the 
climate system.
    Third, models can be used to focus observational activities. In 
regions where data are sparse, models can be used to define the 
frequency, coverage, and type of measurements that may shed the most 
light on the physics, chemistry and the composition of the atmosphere.
    Fourth, climate models have recently predicted a few climate 
anomalies up to a year in advance. These model predictions, which are 
increasing in accuracy, incorporate information on the current state of 
the oceans and atmosphere. Predictions of El Nino and La Nina events 
and climate anomaly patterns associated with these phenomena have 
proven reasonably accurate and there is potential for this type of 
model prediction to be extended out beyond a year.
    Fifth, climate models can be used to develop scenarios of possible 
future states of the climate system, given a specified set of 
assumptions (e.g., the future quantities of greenhouse gases, including 
ozone trends and aerosols). Such climate scenarios can then be used to 
develop projections of possible climate-related impacts on human and 
natural systems. Models currently show large-scale climatic response to 
increased greenhouse gas levels: for instance, (1) there may be some 
warming at the surface, warming of the troposphere, and some cooling in 
the stratosphere; (2) there may be greater warming at high latitudes 
than at low latitudes; and (3) there may be an increase in low level 
humidity over the oceans. Such fingerprints of human-induced climate 
change have been compared with the observed climate to help detect its 
changes and attribute its causes.
    From the GCM-based projections of climate change, analysts can 
begin to evaluate the potential impacts on market and non-market 
sectors of society. As these impact models become more sophisticated, 
increasingly better pictures of what might happen under different 
scenarios will develop. More research on impacts will help countries 
identify the seriousness of possible climate change and allow them to 
study the cost-benefits of various response options.
    In addition, models can be used to facilitate an understanding of 
the lag time between causes and effects associated with human as well 
as natural causes of climate change. It is essential to keep in mind 
that model projections depend on the sophistication of the model: the 
estimates in the model, the assumptions used by the model, and what in 
nature is not yet understood and therefore not covered in the model. 
This is why the climate research community generally places so much 
emphasis on verifying model results with actual data. By exploring sets 
of these model projections, the policy community can begin to discuss 
the effects that policies, aimed at reducing greenhouse gases, might 
have on climate, humans, and economies.

Models & Decision-Making
    Existing GCMs can make ``what if'' projections of future global 
climate possibilities because they are the best available tools, even 
though they are currently limited in resolution and completeness. 
Regionally specific information is ultimately needed because, for 
example, while U.S. citizens have interest in what happens to the 
planet as a whole, they are especially interested in what happens to 
the U.S. and to their own neighborhood. Global climate projections from 
different models show a range of effects. The range of effects is 
largest for smaller regions. Partly, this is due to the natural local 
variability of climate and partly this is due to scientific 
uncertainties.
    Just as global climate models have advanced, so have global 
economic impact models for estimating costs and benefits. Integrated 
assessment models, which take into account chains of events (if ``A'' 
happens, then results ``B'' could occur, but if ``A'' does not happen, 
then ``C'' will occur), are a tool to help understand long-term costs 
and benefits.

Limitations of Models
    Having discussed the uses and strengths of GCMs, one should not 
assume that they do not have weaknesses--in fact, some scientists would 
state that the weaknesses are so great as to question their value in 
near-term decision-making. Some of the features of the GCMs are less 
robust than others, partly because there is disagreement between the 
models about predicted climate changes. Furthermore, even if the models 
agreed, it does not necessarily make them correct.

Phenomenological Feedbacks
    Much of the uncertainty in current climate models is associated 
with ``feedbacks''--how various phenomena interact with one another. 
Feedback mechanisms are clearly important. Climatologists agree that, 
without these feedbacks, a doubling of CO<INF>2</INF> would give about 
a 1.8+F (1+C) rise in global-average temperature. Many phenomena have 
large impacts on others, some amplifying and some dampening effects. 
Some extremely important phenomena, the feedback consequences of which 
we do not fully understand, are the following:

  <bullet> Clouds;

  <bullet> Ice;

  <bullet> Land surface processes;

  <bullet> Ocean effects;

  <bullet> Biological processes;

  <bullet> Physical and chemical reactions in the atmosphere;

  <bullet> Particulates;

  <bullet> Solar cycle effects; and,

  <bullet> Tropical convection and rainfall.

    These phenomena are not yet adequately understood in isolation, let 
alone in combination with other factors. Thus, scientists must utilize 
approximations, estimates of aggregate regional effects, or ignore some 
phenomena all together for the time being. Other suspected feedback 
mechanisms are yet to be described or modeled.
    For example, the role of clouds and water vapor in climate models 
is not well understood; yet water vapor is the most significant 
greenhouse gas in the natural (unperturbed) atmosphere and dramatically 
affects cloud cover and the transfer of radiant energy to and from the 
Earth's surface.
    Also, modeling the impact of clouds is difficult because of their 
complexity and compensatory effects on both weather and climate. Clouds 
can reflect incoming sunlight and therefore contribute to cooling, but 
they also absorb infrared radiation that would otherwise leave the 
earth, thereby contributing to warming.

Parameters
    Models utilize observational data to adjust various model 
parameters to help make such parameters more realistic. ``Tuned'' 
models, however, cannot be validated by the data for which they were 
adjusted and must be validated by independent means.
    As previously mentioned, the equations related to the climate to be 
modeled are so complex that they can only be solved at specific 
geographical and vertical locations, and only over specific time 
intervals. The limit on horizontal size imposed by present-day 
supercomputers also limits the physical processes that can be 
explicitly included in a GCM. As discussed above, GCMs using today's 
supercomputers explicitly include physical processes having horizontal 
sizes of approximately 250 miles and larger. Worse yet, the physical 
processes smaller than 250 miles cannot be ignored because their 
effects can significantly impact climate and climate change. Thus, 
climate modelers face the dilemma that their models cannot resolve the 
small-scale physical processes and they cannot ignore their effects. 
This is one, if not the major difficulty in modeling the Earth's 
climate. The approach taken to overcome this problem is to determine 
the effects of the small-scale physical processes on the larger scales 
that can be included in a GCM using information on those larger scales 
and statistical relationships. This approach is called 
``parameterization.'' The principal differences among GCMs lie in their 
approaches to parameterization, particularly in the case of cloud and 
precipitation processes. These parameterization differences have a 
significant influence on differences in climate sensitivity--the change 
in the equilibrium global-mean surface temperature resulting from a 
doubling of the CO<INF>2</INF> concentration--between various GCMs.

Testing Models
    One way that models are tested is to use them to reproduce past 
events and variations. The earth's climate has been changing for 
millions of years but we do not have detailed data on those changes 
because humankind was not acquiring relevant data until relatively 
recently. As such, we cannot accurately truth test climate models over 
past periods of time beyond much more than a hundred years. Thus, we 
are asking these models to assist us in decision-making in an 
environment of considerable scientific uncertainty. There is, however, 
significant effort underway to compare the general nature of model 
simulations of pre-historic time periods against data from proxies 
(e.g., tree-ring widths, borehole temperatures, and oxygen isotopes in 
sediments) of past climates.

Human Resources
    Compared to intermediate and smaller modeling efforts, such as 
those aimed at understanding the behavior of a particular climate 
process over a single locality, insufficient U.S. and international 
resources for research and computer hardware are being devoted to high-
resolution global climate modeling.

Data
    Instrumental temperature measurements of varying quality exist for 
about 135 years. Relatively crude but useful information before then 
has been obtained from proxy data such as the width of tree rings and 
the abundance of certain isotopes trapped in ice cores taken from the 
ice caps and glaciers and in sediment cores taken from the deep sea and 
lakes.
    Climate data are routinely collected for weather prediction. Much 
of this data gathering was not designed to detect subtle trends that 
occur on decadal or longer time scales. For climate modeling, we need 
more accurate and extensive data than even currently used in weather 
prediction. There is also a need for better organization and long-term 
archiving of climate data.

Advancement of Models
    Model development has progressed considerably in the past decade. 
However, though there have been downward modifications in estimates of 
future climate change (e.g., through the inclusion in models of the 
effects of aerosol cooling), the limits of uncertainty in possible 
global-average warming for a future doubling of CO<INF>2</INF> have not 
been narrowed; that uncertainty has been in the 2.7-8.1+F (1.5-4.5+C) 
range for the past 20 years for most GCMs.
    While the capacities and speed of supercomputers have progressed 
dramatically in recent years, climate models remain constrained by 
current computational capacity. In fact, the leading climate models are 
no longer in the United States because U.S. researchers do not have 
access to the more powerful Japanese computers that other nations 
(i.e., Canada, Japan, United Kingdom) are using. Current computer 
capabilities applied to climate modeling are modest compared to what is 
needed to run high-resolution simulations using GCMs. Current computer 
limitations require that we settle for grid sizes that are much larger 
than needed to model some important phenomena such as tropical 
convection and precipitation.
    The participants in the discussion agreed with the National 
Research Council's Report ``Capacity of U.S. Climate Modeling (1998)'' 
statement of the Council's ``summary results'', if not all the details 
of its Report.

Conclusions
    There are significant uncertainties in predicting future climates 
as a consequence of (a) natural climate variability; (b) the potential 
for uncertain or unrecognized climatic forcing factors (e.g., explosive 
volcanism, new or unknown anthropogenic influences, etc.); and (c) 
inadequate understanding of the climate system. We must expect that new 
observations or results from studies of global climate processes may 
yield information that causes us to re-evaluate and improve the 
capability of climate models. Our estimates of the credibility of 
climate system models can be, of necessity, consistent only with known 
facts and only based on the ``best'' current knowledge.

Projections vs. Predictions
    Thus, it was the consensus of the experts convened by the Annapolis 
Center that climate models may never be able to make greenhouse-warming 
PREDICTIONS with certainty because of the enormous number of variables 
involved and the uncertainty inherent in the future. On the other hand, 
models of greenhouse warming are essential in the learning process. 
Climate models can be used for making PROJECTIONS based on various 
assumptions that in turn may be useful in understanding the 
consequences of various human activities and policy alternatives. When 
such projections will represent possible real climate futures is 
difficult to judge because of the enormous scientific uncertainties 
involved.
    CLIMATE PROJECTIONS are ``what-if'' scenarios about what might 
happen under a set of ASSUMED conditions. Projections may change as 
more knowledge is acquired.
    When weather forecasters make predictions one day or a week in 
advance, they can verify their predictions soon thereafter. Climate 
projections for the next century cannot be verified so easily.
    Continued climate warming year after year is not likely to occur. 
Periods of apparent cooling, however, would not necessarily mean that 
the Earth was not slowly warming over the long term. Similarly, if we 
were to experience warming year after year, we should not assume that 
man-made climate change was the primary or only cause.

Though Better Understood, We Still Have A Long Way To Go
    Global climate science has progressed significantly in recent years 
but our lack of knowledge is still great. A major vehicle for 
understanding the enormously complex global climate system has been 
computer modeling. Today's GCMs have developed rapidly relative to 
earlier models and provide improved estimates of what may happen in the 
future. Many believe that such models are still in a relatively early 
stage of development. Nevertheless, GCMs are important research tools 
that can help to focus the research and measurements needed to better 
understand climate change. Climate modeling will be increasingly more 
valuable as models and our understanding of basic processes are 
improved.
    Models of climate changes are still evolving because we do not yet 
completely understand or model everything that can or will affect 
climate. Scientific uncertainty will always be a component of modeling 
climate change. Our challenge is to reduce this uncertainty.
Because of the Uncertainty, Care Must Be Used in Decision-Making
    Care must be taken when using the results of climate models for 
major public policy decisions because of the existing uncertainty, as 
well as our lack of knowledge about important physical and chemical 
reactions in the atmosphere and oceans.

Adapt Via ``Act-Learn-Act''
    Because man-made greenhouse gas emissions are likely to continue to 
increase in the future, the workshop participants endorse adaptive and 
affordable management strategies, such as ``act-learn-act,'' that are 
robust against what we do no yet know. We will surely be learning more 
about climate change over time. As we learn more, we must revisit 
greenhouse-related policies and adjust them accordingly.
                                 ______
                                 
         Prepared Statement of Dr. Peter B. Rhines, Professor, 
                        University of Washington

    Climate change takes on real force when it combines with human 
activity. It produces multiple and compounded changes of the physical 
environment, and of ecosystems. The U.S. feels these impacts from 
beyond national boundaries, from the global atmosphere and ocean.
    There are many points of contention: between modification of our 
environment and accommodation to it; between natural and human-induced 
climate change; within the scientific debate, between the need for 
prediction and the need for diagnosis. Improved observation and 
understanding of the current and past states of the environment (the 
atmosphere, ocean and land surface) may be just as important as 
attempts to predict its future.
    As Dr. Schmitt has earlier this morning described, the ocean plays 
a particularly interesting role in climate: it dominates the storage of 
heat and carbon and water; it also contains a significant fraction of 
global biological activity: photosynthesis and respiration. It is a 
well-spring of diversity, harbors newly discovered forms of life, and 
in the search for natural pharmaceuticals it is richer than the land.
    Large-scale oscillations of climate. El Nino/Southern Oscillation 
(ENSO), centered in the tropics, is an `argument' between ocean and 
atmosphere which radiates across N. America. With enormous impact on 
temperature, rainfall, storms, flooding, drought, there is some good 
news in an el nino winter, and much bad news.
    In the far northern Atlantic Ocean, the paths followed by intense 
storms over the ocean have moved north since the early 1970s. These 
storms intensify as they suck heat from the ocean. This is a part of 
the so-called North Atlantic Oscillation (NAO), which can switch 
regimes from one month to the next, or from one 30 year period to the 
next: it has an element of unpredictability. It is intimately related 
to the jet stream and polar vortex, a `tall' mode that reaches to the 
stratosphere. The NAO is one of several important patterns of 
oscillation of the atmosphere outside of the tropics (others include 
north-south `annular oscillation' of the jet-stream system in the 
Southern Hemisphere, and a great wave round Antarctica that appears to 
be coupled between ocean and atmosphere).
    In addition to its many impacts on weather, drought and flooding, 
the NAO is involved in the great, deep overturning circulation of the 
ocean. The temperature and salinity of the oceans both condition its 
fluid density . . . its ability to sink. It is at high latitude that 
the ocean is chilled by the atmosphere, and in rare and small regions, 
water sinks to the abyss. This global system fulfills the need for heat 
to be transported from the warm latitudes to the cold, where it 
radiates to space.
    Nearly horizontal layering of the oceans, with dense waters sinking 
beneath buoyant surface waters, is the result of this `heat engine' and 
it is of great consequence to the distribution of ocean life. 
Photosynthetic life needs sunlight and nutrients. By controlling the 
flow of nutrients from their rich store at depth, upward to the sunlit 
surface, life of the ocean is determined by its patterns of its up/
down, north/south circulation. This `meridional overturning 
circulation' provides a severe challenge to computer models, because of 
the small yet essential features and the complex shape of the solid 
Earth. While current computer models have many inaccuracies, they are 
increasingly being subjected to the acid test of focused, small scale 
seagoing observational programs.
    ENSO and NAO are examples of the possible expression of global 
warming in `modes' . . . that is patterns of ocean and atmosphere 
response with warm and cold, wet and dry. The Titantic sank in 1912, 
during a cold period that encouraged icebergs to reach southward into 
shipping lanes. There followed two major periods of global warming this 
century, the 1930s-40s and 1970s-90s, which in fact correlate with 
phases of the NAO. These modes are good tests of computer models of 
climate, and indeed are the subject of intense simulation work at 
present.
    Northern Asia and Canada experienced some of the most intense 
warming in the 1990s, dominating the global average: we in the U.S. 
have not yet seen the full force of warming. The northern Atlantic 
actually has cooled for many years, as cold, Arctic air blew from 
Canada with increased vigor. Greenhouse warming is expected on average 
to be initially severe in the Arctic, and to increase the water vapor 
in the atmosphere. In N. America, increased precipitation and 
streamflow out into the ocean has developed. Together with the long 
feared, and now observed, thinning and meltback of the Arctic sea ice, 
these events are portentous.
    Abrupt climate change. The paleoclimate observations, both from 
sea-floor sediment cores, glacial ice cores, record remarkable periods 
of rapid change in the distant past, particularly during ice-age 
glaciation and the transition out of it. Both the increasing input of 
fresh water on top of the ocean, and the warming itself, can resist the 
sinking and global deep circulation described above. Communication 
between land surface, Arctic, and Atlantic ocean is important to the 
distribution of low-salinity water, and it is correlated with the NAO. 
Mathematical models and computer models of climate predict a slowdown, 
by up to 50%, of this global circulation in the coming decades. Such 
changes can be called abrupt in the great scheme of things. A new 
National Research Council study on abrupt climate change is underway 
this summer.
    The ocean ecosystem represents an important, in some ways dominant, 
part of global photosynthesis and respiration. Ocean circulation and 
its layering into dense deep waters and buoyant surface waters largely 
control the distribution of life in the sea. Disappearance of cod from 
Atlantic fisheries has a strong relation to over-fishing, yet these 
fish are very sensitive to temperature. Recovery of cod stocks has been 
slow, even when fishing grounds closed down. Salmon fisheries in the 
north Pacific have seen very long (~50 year) cycles, under a multitude 
of pressures from declining quality of rivers and streams, and climate 
change (the so-called Pacific Decadal Oscillation, or PDO). This summer 
Coho salmon returned to Lake Washington in great numbers, for the first 
time in a decade, yet other salmon species are now on the endangered 
list. Overall, 11 of the 15 most important global fisheries are in 
trouble, and the world fish catch has begun to decline after rising 
six-fold between 1950 and 1996. It is a classic case of compounding of 
causes: over-fishing puts stress on fish populations, making them 
sensitive to modest climate change.
    Storms. Severe storms, hurricanes, tornados, the super-novae of 
weather, are of particular importance. Loss of life in underdeveloped 
countries and economic loss in the U.S. are both striking. A tropical 
cyclone (dynamically similar to a hurricane) in the Indian Ocean hit 
land in Bangladesh in November 1971; its 30 foot-high storm surge 
inundated the low-lying river delta, causing between 250,000 and 
500,000 fatalities. In the U.S. Hurricane Andrew, in 1992, was one of 
the most costly natural disasters in history. A direct hit of a major 
hurricane on Miami could cost more than $70B in property damage, owing 
to the intense coastal population increase and development of coastal 
real estate. Hurricane Mitch, in 1998, showed the world how capricious 
and destructive these storms are in the less-developed world. Following 
an unexpected path southward, then sitting over the mountains of 
Honduras and Nicaragua, Mitch destroyed villages and cost more than 
10,000 lives through endless rainfall, flooding, and erosion. It nearly 
destroyed the economies and social infrastructure of these countries.
    Hurricane paths and their intensity are correlated with el nino 
cycles, and with another key tropical oscillation, the Madden-Julian 
Oscillation. Hurricanes (and tropical cyclones) take their energy from 
the heat of the tropical ocean. They do so surprisingly rapidly, and 
have been observed to intensify in passing over the Gulf Stream and 
warm eddies (only 50 miles wide) in the Gulf of Mexico. Long lasting 
effects are inland flooding, pollution and sedimentation, which destroy 
habitats in estuaries and marshes. Their connection with global warming 
is less clear. Model studies suggest a 5%-12% increase in hurricane 
wind-speed for a 2 degree C rise in sea-surface temperature, but this 
is very uncertain.
    Changes in normal weather, for example, more intense rainstorms, 
have been linked to ENSO, NAO and other global climate modes. Possible 
links exist back to global warming through these modes of oscillation, 
as well as more directly, through the changing levels of cloudiness.
    At every turn in this discussion we must weigh the relative 
advantages of prevention, protection, and treatment in the aftermath. 
Amartya Sen, an economist at Cambridge University, argues that 
destruction from climate and storms is most severe in the aftermath: 
that stockpiling of food and creation of jobs programs for the poor are 
important in preserving human life . . . as much so as protection from 
the storm on the day, itself.
    Coastal Ocean. The coastal ocean, the water on the continental 
shelves and in estuaries, is a small part of the global ocean, yet is 
the home of roughly one half of oceanic biological productivity 
(roughly 25% of global primary biological productivity). It is the site 
of much diversity, and close involvement with human populations, which 
are increasingly concentrated near the seacoast. It is also the site of 
80 to 90 percent of the global fish catch. Estuaries, where rivers meet 
the sea, are a sort of pumping machine in which river-flow and tidal 
stirring combine to suck water in from the deep ocean, supplying the 
region with nutrients: to their benefit, estuaries flow in and out at 
rates much greater than (as much as 50 times) the river-flow that 
drives them. Nutrient sources from rivers are often a small 
contribution, yet in some estuaries, agricultural practices are loading 
the estuaries with nitrogen and phosphorus, as well as viruses and 
bacteria. Chesapeake Bay seasonally teeters on the edge of hypoxia, a 
reduction of oxygen to the point where fish can no longer live, when 
stratification, layering of the water by density, and nutrient inflow 
are both high.
    The coasts are what we call `potential vorticity guideways' along 
which climate change can be signaled rapidly (for example, from an el 
nino event on the Equator, poleward along the North and South American 
Pacific coasts). With a complex of local influences, human and natural, 
the coastal ocean is undergoing rapid change. Yet, at the same time, 
global climate change is strongly felt in this region. A third, severe 
effect is the colonization of the coastal ocean (and lakes and rivers) 
by new species introduced by ship traffic. Ships carry ballast water 
from one continent to another, discharging it and its biological cargo 
near the coast. The highly diverse coastal ecosystem, after evolving in 
relative isolation, is suddenly invaded.
    It is hard to say in detail what is the time- and space-variability 
of ocean biology and its impacts on the health of humans, fish and 
algae. This is because we have not yet invested in baseline 
observations of the coastal ocean. But we observe numerous regional 
hot-spots, as with the dinoflagellate gymnodinium catenatum transported 
to Australia from Asia, and the Asian clams that have taken over San 
Francisco Bay.
    Both river- and deep-sea inputs to estuaries change with climate. 
For example, during El Nino, riverflow decreases in some regions, thus 
decreasing the nutrient supply from this source. At the same time 
coastal winds change and this change can alter the supply of nutrients 
to the estuary as more or less nutrient rich water is pulled up from 
the deep ocean to the estuary mouth. Variation of the health of 
fisheries, such as oysters in the Pacific Northwest, has been shown to 
depend on the frequency and strength of El Nino. Because of the link to 
offshore waters, estuaries can also be expected to show evidence of 
longer term climate change such as the PDO.
    Major rivers can exhibit these sensitivities strongly. In the 
Pacific Northwest the largest river is the Columbia. The plume from the 
Columbia can stretch several hundred kilometers from the river mouth--
to the Strait of Juan de Fuca in the north and to San Francisco in the 
south. The size of the plume is controlled in spring by the amount of 
snow pack received by the region in the preceding winter. For example, 
snowpack was high in 1999 during la nina. In such years, the plume 
floods other nearby estuaries, substantially reducing the salinity and 
nutrients in those estuaries, dramatically altering the environment 
encountered by emerging salmon smolts and entering juvenile crab 
larvae. In years with lesser snowpack, the Columbia plume likely has a 
more southwestward orientation and may have much less effect on local 
estuaries. Long term effects on the fisheries might be expected due to 
these and other such climate effects and are the subject of current 
research.
    Human health. Along with colonization of the coastal ocean by new 
species there are increasing problems involving toxins. Harmful algal 
blooms are occurring more frequently. They involve both local human 
causes (nutrient loading, turbid water), and physical ocean changes 
(temperature, stratification, upwelling, rainfall). While mortality is 
not often widespread, illness and economic loss from closure of 
shellfish beds is. Estimates of the loss to the fishing industry from a 
single Pfiesteria outbreak, in Chesapeake Bay in 1996, were $20M. The 
degree to which global climate change is involved, is not yet known.
    An example of a pressing public health and economic problem is the 
diatom in the genus Pseudonitzschia that cause domoic acid poisoning 
(DAP), also known as amnesic shellfish poisoning (ASP), and 
dinoflagellates in the genus Alexandrium that are the source of 
paralytic shellfish poisoning (PSP). Toxic outbreaks along the U.S. 
coast can be highly localized or can extend over several hundred miles 
and last for several months. Both the occurrence of such toxic algal 
blooms in the offshore coastal waters and the delivery of the toxic 
algae to coastal beaches and to coastal estuaries is thought to depend 
on wind speed and direction as well as coastal water properties and 
hence have a direct link to climate changes along the U.S. coast. Near 
the Strait of Juan de Fuca, the physical oceanography of the coastal 
circulation has been linked with the appearance of HABs at the coast. A 
detailed study of the toxic dinoflagelate gymnodinium breve shows its 
development in the warm, broad shallows of the Gulf of Mexico, and its 
transport in the Gulf Stream system as far as North Carolina, where it 
has come to shore.
    A major outbreak of cholera developed in coastal Peru, during an 
extended el nino event in 1991, and thereafter quickly appeared to 
neighboring countries. In the first 3 weeks, 30,000 cases and 114 
deaths were reported. Cholera lives dormant in the sea as vibrio 
cholerae, associating itself with mucous membranes of the copepod. 
There is an apparent relationship between warm sea-surface temperature 
and cholera there and in Bangladesh. The association of climate with 
disease is thus plausible, yet there are several possible routes, for 
el nino rainfall alters sanitation on shore as well as disturbing and 
warming the coastal ocean.
    Cholera is a disease that may illustrate the association of 
virulence with transmission rate. In evolutionary biology, Paul Ewald 
of Amherst College argues that cholera and many slowly developing human 
diseases have evolved so as to maximize their own transmission. Thus, 
with poor sanitation in the under-developed world, cholera is rapidly 
transmitted and very virulent. In countries with good sanitation 
cholera exists in a much more benign strain, adapted to very slow 
transmission. This message suggests that global climate change and 
human activity (like introduction of `exotic' species by ship traffic) 
both could conspire to increase the virulence of toxic viruses and 
bacteria in the environment.
    There is a tension throughout this debate on global change, between 
advocates of public health, social infrastructure, economics of the 
recovery on the one hand, and advocates of mitigation of climate change 
(and its role in disease), and environmental science, on the other. 
Regardless of the balance struck in resolution of this debate, there is 
value in observing our environment, predicting its future, AND 
assessing its current behavior.
    New technologies. A remarkable chain of technological discovery has 
focused on observations of the global environment. These are moored and 
drifting and self-propelled vehicles in the ocean, with a range of 
sensors for physical, biological and chemical substances; orbiting 
satellites that probe both oceans and atmosphere; sea-floor and moored 
`observatories' that allow us to `explore in time' as well as space. 
The importance of establishing long-term measurement sites for climate 
studies cannot be overstated (the TAO array of moorings in the Pacific, 
perhaps the largest scientific instrument ever built, has shown us the 
inner workings of el nino). Molecular biology gives a remarkable tool 
for studying the function and evolution of ecosystems. Computer models 
of the climate system have become the centerpiece for ideas and 
observations, and computing power continues to increase steadily 
(though sometimes delayed by political constraints).
    These new sensors and platforms give us eyes for viewing climate, 
computers and the internet give us a global central nervous system, but 
we also need the will to observe and understand the environment as it 
is assaulted by accelerating natural and human-induced change.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Currents and upwelling of cold, nutrient rich water along the U.S. west 
coast 
Sea-surface temperature (Oregon State University)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Evidence of a red tide on the West Florida Shelf: Nov 1978, red = 
chlorophyll 
a > 3 <greek-m>g/l (Florida Marine Inst.)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Northern Atlantic (Labrador Sea) salinity at three depths (2000m, 
3500m, 1500m top to bottom). Salinity declines as fresh water input at 
the surface has increased with intense, cold forcing by the North 
Atlantic Oscillation. I. Yashayaev, J. Lazier Bedford Inst. of 
Oceanography, P. Rhines (Univ. of Washington)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Dissolved nitrate in the Atlantic Ocean, along a section from 
Antarctica (left) to Iceland. High concentrations of this nutrient 
occur deep in the ocean, and in the Southern Ocean. Near the surface 
nitrate is almost absent, evidence of active ecosystem growth at the 
top of the ocean. The global ocean circulation must bring nitrate up to 
the surface, and controls the distribution of life (WOCE program).
                                 ______
                                 
  Climate Policy--From Rio to Kyoto: A Political Issue for 2000--and 
                                 Beyond
               Hoover Institution Essay by S. Fred Singer
Executive Summary
    Within the United States, global warming and related policy issues 
are becoming increasingly contentious, surfacing in the presidential 
contests of the year 2000 and beyond. They enter into controversies 
involving international trade agreements, questions of national 
sovereignty versus global governance, and ideological debates about the 
nature of future economic growth and development. On a more detailed 
level, determined efforts are under way by environmental groups and 
their sympathizers in foundations and in the federal government to 
restrict and phase out the use of fossil fuels (and even nuclear 
reactors) as sources of energy. Such measures would reduce greenhouse-
gas emissions into the atmosphere but also effectively deindustrialize 
the United States.
    International climate policy is based on the 1997 Kyoto Protocol, 
which calls on industrialized nations to carry out, within one decade, 
drastic cuts in the emission of greenhouse gases (GHG) that stem mainly 
from the burning of fossil fuels. The Protocol is ultimately based on 
the 1996 Scientific Assessment Report issued by the Intergovernmental 
Panel on Climate Change (IPCC), a U.N. advisory body. The IPCC's main 
conclusion, featured in its Summary for Policymakers (SPM), states that 
``the balance of evidence suggests a discernible human influence on 
global climate.'' This widely quoted, innocuous-sounding but ambiguous 
phrase has been misinterpreted by many to mean that climate disasters 
will befall the world unless strong action is taken immediately to cut 
GHG emissions.
    This essay documents the inadequate science underlying the IPCC 
conclusions, traces how these conclusions were misinterpreted in 1996, 
and how this led to the Kyoto Protocol. I also discuss some fatal 
shortcomings of the Protocol and the political and ideological forces 
driving it.
    The IPCC conclusion is in many ways a truism. There certainly must 
be a human influence on some features of the climate, locally if not 
globally. The important question--the focus of scientific debate--is 
whether the available evidence supports the results of calculations 
from the current General Circulation Models (GCMs). Unless validated by 
the climate record, the predictions of future warming based on 
theoretical models cannot be relied on. As demonstrated in this essay, 
GCMs are not able to account for observed climate variations, which are 
presumably of natural origin, for the following reasons:

    1. To begin with, GCMs assume that the atmospheric level of carbon 
dioxide will continue its increase (at a greater rate than is actually 
observed) and will more than double in the next century. Many experts 
doubt that this will ever happen, as the world proceeds on a path of 
ever-greater energy efficiency and as low-cost fossil fuels become 
depleted and therefore more costly.

    2. Next, one must assume that global temperatures will really rise 
to the extent calculated by the conventional theoretical climate models 
used by the IPCC. Observations suggest that any warming will be minute, 
will occur mainly at night and in winter, and will therefore be 
inconsequential. The failure of the present climate models is likely 
due to their inadequate treatment of atmospheric processes, such as 
cloud formation and the distribution of water vapor (which is the most 
important greenhouse gas in the atmosphere).

    3. The putative warming has been labeled as greater and more rapid 
than anything experienced in human history. But a variety of historical 
data contradicts this apocalyptic statement. As recently as 1,000 years 
ago, during the ``Medieval climate optimum,'' Vikings were able to 
settle Greenland. Even higher temperatures were experienced about 7,000 
years ago during the much-studied ``climate optimum.''

    The IPCC's Summary for Policymakers tries hard to minimize the 
inadequacy of the GCMs to model atmospheric processes and reproduce the 
observed climate variations. For example, the SPM does not reveal the 
fact that weather satellite data, the only truly global data we have, 
do not show the expected atmospheric warming trend; the existence of 
satellites is not even mentioned.
    The scientific evidence for a presumed ``human influence'' is 
spurious and based mostly on the selective use of data and choice of 
particular time periods. Phrases that stress the uncertainties of 
identifying human influences were edited out of the approved final 
draft before the IPCC report was printed in May 1996.
    A further misrepresentation occurred in July 1996 when politicians, 
intent on establishing a Kyoto-like regime of mandatory emission 
controls, took the deceptively worded phrase about ``discernible human 
influence'' and linked it to a catastrophic future warming--something 
the IPCC report itself specifically denies. The IPCC presents no 
evidence to support a substantial warming such as calculated from 
theoretical climate models.
    The essay also demonstrates that global warming (GW), if it were to 
take place, is generally beneficial for the following reasons:

    1. One of the most feared consequences of global warming is a rise 
in sea level that could flood low-lying areas and damage the economy of 
coastal nations. But actual evidence suggests just the opposite: a 
modest warming will reduce somewhat the steady rise of sea level, which 
has been ongoing since the end of the last Ice Age--and will continue 
no matter what we do as long as the millennia-old melting of Antarctic 
ice continues.

    2. A detailed reevaluation of the impact of climate warming on the 
national economy was published in 1999 by a prestigious group of 
specialists, led by a Yale University resource economist. They conclude 
that agriculture and timber resources would benefit greatly from a 
warmer climate and higher levels of carbon dioxide and would not be 
negatively affected as had previously been thought. Contrary to the 
general wisdom expressed in the IPCC report, higher CO<INF>2</INF> 
levels and temperatures would increase the GNP of the United States and 
put more money in the pockets of the average family.

    But even if the consequences of a GW were harmful, there is little 
that can be done to stop it. ``No-regrets'' policies of conservation 
and adaptation to change are the most effective measures available. 
Despite its huge cost to the economy and consumers, the emission cuts 
envisioned by the Kyoto Protocol would be quite ineffective. Even if it 
were observed punctiliously, its impact on future temperatures would be 
negligible, only 0.05+C by 2050 according to IPCC data. It is generally 
agreed that achieving a stable level of GHGs would require much more 
drastic emission reductions, including also by developing nations. To 
stabilize at the 1990 level, the IPCC report calls for a 60 to 80 
percent reduction--about twelve Kyotos on a worldwide basis!
    Finally, the essay attempts to trace the various motivations that 
led to the Kyoto Protocol. It concludes that U.S. domestic politics 
rather than science or economics will decide the fate of the Protocol; 
in particular, the presidential elections of 2000 will determine 
whether the United States ultimately ratifies the Protocol, which would 
be essential for its global enactment. Conversely, informed debate 
about the Protocol can influence the outcome of the elections.
                                 ______
                                 
     Yale University, School of Forestry and Environmental 
                                                   Studies,
                             New Haven, Connecticut, July 12, 2000.

Senator John McCain
Committee on Commerce, Science, and Transportation
United States Senate
Washington, D.C.

Dear Senator McCain:

    In response to your invitation to speak to the Senate Committee on 
Commerce, Science, and Transportation, I would like to submit the 
following material as part of the written record. Over the last five 
years, I have been working with a distinguished group of researchers 
from across the United States measuring the impacts of climate change 
on the U.S. economy. The initial study, edited by Robert Mendelsohn and 
James Neumann and published in 1999 by Cambridge University Press, was 
entitled ``The Impact of Climate Change on the United States Economy.'' 
A subsequent book entitled ``Global Warming and the American Economy: A 
Regional Assessment of Climate Change'' is being prepared for 
publication at present. Following is the introduction and the synthesis 
of results of this new book.*
---------------------------------------------------------------------------
    * The information referred to has been retained in the Committee 
files.
---------------------------------------------------------------------------
    The critical insight of both of these new books is that adaptation 
matters. Empirical research indicates that households and firms will 
respond to climate change and reduce damages and enhance benefits. 
Coupled with more careful modeling of dynamic effects, carbon 
fertilization, and ecosystem change, the new results are far more 
optimistic than the old studies. These estimates do not include 
nonmarket effects in health, ecosystem change, and aesthetics, but it 
is not clear that these nonmarket effects will be large in the United 
States.
    Climate change is likely to result in small net benefits for the 
United States over the next century. The primary sector that will 
benefit is agriculture. The large gains in this sector will more than 
compensate for damages expected in the coastal, energy, and water 
sectors, unless warming is unexpectedly severe. Forestry is also 
expected to enjoy small gains. Added together, the United States will 
likely enjoy small benefits of between $14 and $23 billion a year and 
will only suffer damages in the neighborhood of $13 billion if warming 
reaches 5C over the next century. Recent predictions of warming by 2100 
suggest temperature increases of between 1.5 and 4C, suggesting that 
impacts are likely to be beneficial in the U.S.
    The impact of warming depends upon the initial temperature of each 
region. With mild warming of 1.5 C, every region benefits from warming. 
The average American would enjoy benefits of about $100/yr. However, 
with 2.5C warming, the cooler northern regions of the country benefit 
far more than the warmer southern regions. The average citizen in the 
north would enjoy benefits of about $80/yr whereas southern citizens 
would enjoy average benefits of only about $6/yr. If warming rises to 
5C, the benefits in the north shrink to about $40 per person, but 
citizens in the south may suffer damages from $120 to $370 per person.
    In summary, climate change does not appear to be a major threat to 
the United States for the century to come. There is little motivation 
for expensive crash programs to curb short term emissions of greenhouse 
gases. The focus of mitigation policy should remain on inexpensive ways 
to control global emissions over the next century.
        Sincerely,
                                         Robert Mendelsohn,
                                Edwin Weyerhaeuser Davis Professor.


                                            TABLE 1 National Impacts

                  Sector                                   Old Results                        New Results

Agriculture                                -17.5 to -1.1                              19.6
Forestry                                    -3.3 to -0.7                               3.7
Water                                       -7.0 to -15.6                             -2.2
Coastal                                     -7.0 to -12.2                             -0.2
Energy                                      -9.9 to -0.5                              -5.8
TOTAL                                      -44.7 to -13.8                             15.1

Sources: Nordhaus [1991], Cline [1992], Fankhauser [1995], Tol [1995], Mendelsohn [2000].


                                                Regional Impacts
                              (Billions of USD/yr)  2.5C, 7% Precipitation Scenario

                                                                          Sector

                 Region                       Agr         For         Ene         Coa         Wat        Total

Northeast                                       2.6         1.9        -0.4        -0.1         0.0         4.0
Midwest                                         5.4         1.1        -0.1        -0.0        -0.0         6.4
N. Plains                                       2.8         0.6        -0.1        -0.0        -0.1         3.2
Northwest                                       1.1        -0.1         1.4        -0.0        -1.7         0.7
Southeast                                       4.2        -0.8        -3.0        -0.1        -0.0         0.3
S. Plains                                       2.1         0.6        -2.4        -0.0        -0.2         0.1
Southwest                                       1.4         0.4        -1.2        -0.0        -0.2         0.4
National                                       19.6         3.7        -5.8        -0.2        -2.2        15.1




                            Regional Impacts
                           (USD/per capita/yr)

                                            Climate Scenario
            Region

 
                                       1.5C          2.5C          5.0C
                                       15%P           7%P           0%P

Northeast                                28            52            19
Midwest                                  84            84            36
N Plains                                539           359            75
Northwest                               410            80          -369
Southeast                                91             6          -122
S. Plains                               129             5          -266
Southwest                                80            11          -134
National                                 97            52           -56


</pre></body></html>
